<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                           ____________________

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey               MARCY KAPTUR, Ohio
  KEN CALVERT, California                           PETER J. VISCLOSKY, Indiana
  CHARLES J. FLEISCHMANN, Tennessee                 MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska                        LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas
  JAIME HERRERA BEUTLER, Washington
  DAVID G. VALADAO, California

  

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants

                             _______________

                                  PART 5

                                                                   Page
  Bureau of Reclamation...........................................    1
                                                                      
  U.S. Corps of Engineers.........................................   89
                                                                     
                                                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    

                              ____________

          Printed for the use of the Committee on Appropriations

                              _____________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-788                    WASHINGTON: 2016

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                        MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                 PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                          JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                        ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                            DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                              LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                            SAM FARR, California
  TOM COLE, Oklahoma                                 CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                         SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                      BARBARA LEE, California
  TOM GRAVES, Georgia                                MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                             STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                         TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                          C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                  DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                  HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                               CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                       MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                              DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  
  

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017

                              ----------                              

                                       Thursday, February 11, 2016.

                         BUREAU OF RECLAMATION

                                WITNESS

ESTEVAN R. LOPEZ, COMMISSIONER, BUREAU OF RECLAMATION
    Mr. Simpson. I would like to call the hearing to order. 
Good afternoon, everyone. Our hearing today is on the fiscal 
year 2017 budget request for the Bureau of Reclamation. Our 
witness is Commissioner of Reclamation, Mr. Estevan Lopez. Mr. 
Commissioner, welcome back to the subcommittee. Last time you 
were here you had been on the job for only about two months. I 
am happy to see that you have not been scared off yet. I look 
forward to talking with you about the Reclamation's 
accomplishments over the past year as well as the challenges 
facing the Bureau of Reclamation.
    Joining the Commissioner at the witness table is Mr. Robert 
Wolf, Director of Program and Budget Office. We are happy to a 
have you join us here as well, Mr. Wolf.
    Historically the Bureau of Reclamation was instrumental in 
development of the western United States. The electric power 
and movement and management of water from municipal, 
industrial, agricultural uses provided by Reclamation projects 
allowed citizens to settle new areas, provided industrial 
support for World War II, and supported broad economic growth. 
Today the water and power benefits of Reclamation projects are 
no less important to the economic health of the region and of 
the Nation as a whole. But the challenges facing Reclamation 
have changed. Then the challenges were designing and 
constructing immense infrastructure projects, projects that 
decades later remain engineering marvels.
    Now, Reclamation must figure out how to maintain this aging 
infrastructure necessary to support a still growing population 
while also addressing the new environmental requirements of new 
interpretations of old requirements that have increased the 
amount of water directed toward restoring fish runs and habitat 
areas. For the past several years Reclamation has had to deal 
with an uncooperative mother nature as well.
    And just in case anyone thought that task was too easy, 
Reclamation must attempt to meet these goals with a budget that 
has not seen a significant increase in many years. Taken 
together these circumstances mean it is even more important 
that we, the executive and legislative branches together resist 
the pull to overpromise results and that we ensure that the 
funding provided is directed to the activities that will bring 
the greatest benefits to the Nation.
    I look forward to discussing with the Commissioner how the 
Federal government might address these many concerns. Again I 
would like to welcome you to the Subcommittee, Commissioner 
Lopez. Please ensure for the hearing record the questions for 
the record and any supporting information requested by the 
Subcommittee are delivered in final form to us no later than 4 
weeks from the time you receive them. Members who have 
additional questions for the record will have until close of 
business today to provide them to the subcommittee's office.
    With that I would like to turn to Ms. Kaptur for her 
opening comments.
    [The prepared statement of Mr. Simspon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Ms. Kaptur. Thank you, Mr. Chairman, and thank you to our 
witnesses, Mr. Lopez and Mr. Wolf. We look forward to your 
testimony and thank you so very much for joining us today.
    The Bureau of Reclamation is responsible for providing 
agricultural, municipal, and industrial water supply in the 
west. Economies, ecosystems, and communities all rely on the 
availability of clean water. At a time when demand is 
increasing and many regions have been hard hit by extended 
drought, the Bureau is being asked more and more to provide 
solutions to the west's water needs while being good stewards 
of our natural resources.
    I hope to hear today how the fiscal year 2017 request 
reflects this responsibility with a reduced budget. 
Reclamation's budget request for water and related resources is 
a 12.8 reduction in the 2016 appropriation. While we are all 
interested in finding appropriate places to cut, I do have 
concerns that this reduced request continues the disinvestment 
in our Nation's water resource infrastructure. Therefore it 
will be especially important that the Subcommittee understands 
the specific methodology used to arrive at this particular set 
of projects and activities. Drought in the western states 
continues to be an issue. As Senator Feinstein said to me when 
I want to describe your state, what is happening, what do I 
say, she said you tell the world we are becoming a desert 
state. There has been some recent higher than average rainfall 
and snow pack and we will be interested to hear your comments 
about how that impacts your operations.
    Given Reclamation's role as a provider of water I hope we 
can gain additional understanding of how this drought is 
impacting Reclamation projects and water deliveries. 
Reclamation plays a vital role in delivering water to tribes in 
rural communities that could not otherwise access clean water 
and I do appreciate that the administration budget continues to 
meet the Nation's obligation under the Indian Water Rights 
settlements.
    Finally, much of the Bureau's infrastructure was built 
nearly a century ago. In fact, over half of the Bureau's dams 
are more than 60 years old. It is critical that Reclamation 
maintain this aging infrastructure and it is incumbent on 
Reclamation to explain how the budget request provides funding 
levels that meet the Bureau's responsibility to keep Americans 
safe while maintaining its dams in proper working order. We are 
all interested in ensuring that every dollar is spent 
effectively and efficiently, and I look forward to your 
testimony today on how Reclamation plans to accomplish this 
task.
    Thank you, Mr. Chairman, for the time.
    Mr. Simpson. Thank you. Mr. Lopez, the floor is yours.
    Mr. Lopez. Thank you, Chairman Simpson, Ranking Member 
Kaptur, and members of the subcommittee. It is an honor and a 
pleasure to appear before you to discuss the President's fiscal 
year 2017 budget for the Bureau of Reclamation.
    I appreciate the time and consideration given to reviewing 
and understanding Reclamation's budget, projects, and programs. 
I look forward to working collaboratively with you to continue 
to address the complex issues in the west. I have submitted 
detailed written testimony for the record.
    The budget sustains our efforts to deliver water and 
generate hydropower consistent with applicable Federal and 
state law. The extreme and prolonged drought affecting the 
western states adversely impacts our people and costs the 
Nation billions of dollars. While weather in 2016 is being 
favorably influenced by the periodic El Nino, 1 year alone will 
not alleviate all the impacts of a multi-year drought. In this 
regard we appreciate the additional drought response funding 
received in 2016. This fiscal year 2017 budget, totaling $1.1 
billion, addresses our many priorities by allocating funds to 
most effectively implement our management responsibilities for 
water and power infrastructure. I would like to share some 
insights.
    The budget supports the Strengthening Tribal Nations 
initiative through endangered species recovery, rural water 
projects, and water rights settlement programs. The budget 
provides $106.2 million for planning and construction 
associated with Indian water rights settlements, and includes 
$10.4 million for Reclamation's Native American Affairs Program 
to support activities with tribes. Rural water projects are 
funded at $38.1 million, consisting of $18.6 million for the 
operation and maintenance of completed Tribal systems and $19.5 
million for continued construction of authorized projects, 
several of which benefit Tribes.
    The budget supports river restoration, providing a total of 
$135.5 million for projects and programs that directly support 
the goals of America's Great Outdoors Program through local and 
basin wide collaboration in watershed partnerships. This 
includes $27.3 million for the Endangered Species Act recovery 
programs, $11.8 million for the Trinity River restoration 
program, and many other activities addressing restoration in 
the Colorado River, the Middle Rio Grande, the Columbia-Snake 
Rivers, and Yakima River basins.
    The budget continues to promote research and development to 
advance the science and technology that supports best 
management of the country's natural resources and heritage. 
This includes $22.8 million for science and technology and $5.8 
million for the desalination water purification research 
program. Scientific discovery, technological breakthroughs, and 
innovation are vital to responding to the challenges and 
opportunities of the 21st century. Reclamation's budget 
includes sponsorship of technology prize competitions to spur 
innovation and research related to climate adaption and clean 
energy. $61.5 million is included to fund Reclamation's 
WaterSMART Program, consisting of collaborative efforts to 
achieve sustainable water management. Such efforts include 
Title 16 water recycling, WaterSMART grants, water conservation 
field services, and other activities designed to support water 
conservation efforts.
    Reclamation also continues to develop and implement 
approaches to climate change adaptation through WaterSMART. 
Some examples include the Basin Study Program which takes a 
coordinated approach to assess risks and impacts and to develop 
landscape-level science and understanding, the Drought Response 
Program that aims to implement a comprehensive approach to 
drought planning, and actions to help communities develop long-
term resilience strategies, and the Resilient Infrastructure 
Program, by which we continue to develop and test enhanced 
decision making criteria for infrastructure investment and will 
integrate operational efficiencies that are compatible with 
climate variability adaptation goals.
    A total of $86.1 million is provided for Reclamation's 
Safety of Dams Program, which includes $64.5 million to correct 
identified safety issues, $20.3 million for safety evaluation 
of existing dams, and $1.3 million to oversee the Department of 
Interior's Safety of Dams Program. The Central Utah Project 
Completion Act Office is a departmental office within the 
Department of Interior that reports directly to the Office of 
Water and Science. This budget proposes $5.6 million for this 
program, and includes $1.3 million to be transferred to the 
Utah Reclamation Mitigation and Conservation Commission.
    In summary, the budget demonstrates Reclamation's 
commitment to addressing the water and hydropower demands of 
the west in a fiscally responsible manner. It continues our 
emphasis on managing, operating, and maintaining our 
infrastructure to deliver water and power in an environmentally 
and economically sound manner. We will continue to work with 
our customers, States, Tribes, and other stakeholders to 
effectively manage water resources in 2017 and beyond.
    This completes my statement and I would be happy to answer 
any questions.
    [The prepared statement of Mr. Lopez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Simpson. Thank you, Commissioner. With the consent of 
my Ranking Member, we have a couple of other chairmen of 
Subcommittees that need to be at a meeting that starts at 2 
o'clock, so I was going to call on them first and let them go.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman. 
Commissioner, Ranking Member Kaptur mentioned that the history 
of the Bureau of Reclamation and I am focused on something 
called the History of Large Federal Dams Planning, Design, and 
Construction. And let me just read a portion of it. The history 
of Federal involvement in dam construction goes back to at 
least to the 1820s when the Army Corps of Engineers built wing 
dams to improve navigation on the Ohio. This work expanded 
after the Civil War when Congress authorized the Corps to build 
storage dams on the upper Mississippi and regulatory dams to 
aid navigation on the Ohio. In 1902, when the Congress 
established the Bureau of Reclamation--which you represent and 
head today--then called the Reclamation Service, the role of a 
Federal government increased dramatically. And of course today 
you have a major role. What is your relationship these days 
with the Army Corps of Engineers? I know that often the focus 
is on drought, but in reality I would assume is there any 
interaction between you and the Corps in terms of shared 
technology, data, things of that nature? Where do you interact, 
if at all?
    Mr. Lopez. Thank you for that question. We have extensive 
interaction with the Corps of Engineers. The Corps of Engineers 
often dictates the flood control rules by which we operate many 
of our reservoirs. So we interact closely with them on those 
things. We have entered into a memorandum of understanding to 
collaborate on hydropower and increasing hydropower generation 
and understanding how we need to adapt our hydropower 
operations in the face of a changing climate. We do some joint 
projects, an example being Folsom, a dam raise and retrofit of 
Folsom Dam in California where we are doing that project 
together. We have designed various phases of it; some of them 
we have been in charge of, some of them the Corps has been in 
charge of.
    Just yesterday we had a coordination meeting--we do 
quarterly meetings with the Corps on any number of issues, but 
certainly they are the other big water management agency within 
the U.S. and we interact with them in any number of ways and in 
a cooperative and collaborative manner.
    Mr. Frelinghuysen. So I was unaware, but of course in our 
neck of the woods on the east coast we deal with an abundance 
of water, like Hurricane Katrina or Super Storm Sandy. It is a 
question of what we can do to assure the public that we are 
ready for the next natural disaster. But I thank you for your 
work in this area. I think it is good for the Committee to know 
that there has been the historic collaboration.
    Thank you, Mr. Chairman. Thank you.
    Mr. Simpson. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you, and thank you, Commissioner for 
coming today. It is good to see you again. I know that you are 
anticipating that I am going to ask about California water and 
the problems that we are having in the State of California. Do 
you feel so far this year that the Bureau has used its 
discretion and pumped the maximum amount of water possible?
    Mr. Lopez. Mr. Chairman and representatives, yes, I do. And 
I know that that is going to get some pushback. So let me 
explain what I mean. There is an awful lot of water that is 
flowing in the system this year compared to what we have had in 
the last few, with the El Nino weather pattern that is out 
there.
    Having said that--this being by some measures the fifth 
year of an ongoing drought, the last 4 years having been 
extremely dry, some of the species that the Fish and Wildlife 
Service and the National Marine Fishery Service are called to 
protect through the Endangered Species Act are at record lows. 
So they have basically tightened their requirements on what we 
can pump. We have been coordinating very, very closely to make 
sure that we maximize how much we can pump within those 
constraints, but----
    Mr. Calvert. Well, saying that--because I have a limited 
amount of time--I have been told as of today we have pumped 
less water as of today than we did at the same date last year, 
in a historic drought. And obviously we have had significant 
flows of water. As a matter of fact, through December, through 
the end of January, you have had many time periods where you 
had 50,000 cubic feet per second flowing through the delta and 
we were pumping at some points less than 1500 cubic feet per 
second. And I have talked to a number of people up there and, I 
know that the smelt is under stress, but there are some farmers 
that are under stress too in the central valley. I wanted to 
bring that up. And I know after a long time of pumping it is 
been capped at 2500 cubic feet per second through the major 
storm periods. As of today I understand, or tomorrow, you are 
going to be pumping 5,000 cubic feet per second, which you are 
allowed under the biological opinion.
    What kind of assurances that we are going to maintain that 
5,000 cubic feet per second?
    Mr. Lopez. Mr. Chairman and representatives, I cannot give 
you any assurance in that regard. What we are doing is we are 
monitoring the situation day-by-day and we are working in close 
cooperation, collaboration with both the Fish and Wildlife 
Service and NMFS. They basically set the regulatory limit for 
that reverse flow on the Old and Middle River that then limits 
how much we can actually pump out of there.
    [Mr. Lopez responded further for the record:]

    In addition we must abide by the requirements of the 
Biological Opinions.

    Mr. Calvert. But do you not think that it is kind of 
unusual that we have pumped less water as of now than we pumped 
last year and we had a historic drought last year?
    Mr. Lopez. Mr. Chairman and representatives, I am unaware 
of whether that is correct or not.
    [Mr. Lopez responded further for the record:]

    Unfortunately flow conditions on the San Joaquin River for 
most of this winter have not been that much better than last 
year. Given that many of the Delta criteria found in the 
Biological Opinions are influenced more by San Joaquin River 
flows than Sacramento River flows, it is not all that 
surprising that overall winter pumping rates are not that much 
different.

    Mr. Calvert. That is what I have been told.
    Mr. Lopez. I will take your word for it.
    Mr. Calvert. Maybe if you can for the record get that 
information to us; we would like to know. Because obviously--I 
just got off the phone with Scripps, the El Nino expert over 
there, considered the world expert on this, and of course, you 
know, we had significant storms in the front part of this year, 
but he is pessimistic that we are going to have significant 
wetness over the next number of days. He said he could be 
wrong, but based upon historic averages it does not look that 
we are going to get the huge storms that we had hoped to get. 
And since these flood flows are gone now and we cannot get 
water back that we have lost--I understand if we had pumped to 
the 5,000 cubic feet per second we would have had an additional 
200,000 acre feet of storage which we do not have. That is 
gone, there is nothing we can do about that. But in the 
future--is the breeding cycle for the smelt over now? Is that 
done? Have they moved further down into the bay?
    Mr. Lopez. Mr. Chairman and representatives, I believe not. 
And I think what has really been controlling this has to do 
with something called the turbidity, how cloudy the water is. 
If there is a--what they call a turbidity bridge that----
    Mr. Calvert. How long is that going to last? I have been 
hearing about that for the last 6 weeks.
    Mr. Lopez. It could go for a while. They have been 
monitoring it----
    [Mr. Lopez responded further for the record:]

    The current delta smelt life stage of primary concern is 
the larval to juvenile phase. This concern period will depend 
mostly on water temperatures.

    Mr. Calvert. Basically all winter long----
    Mr. Lopez. What I am told, and I am not an expert in this, 
but what I am told is that the spawning from these fish happens 
in the spring, sometime in March or April I think.
    Mr. Calvert. So basically then we will lose all the water 
for the season?
    Mr. Lopez. Not necessarily, but we are----
    Mr. Calvert. Possibly.
    Mr. Lopez. We are operating conservatively as a result of 
that.
    Mr. Calvert. So we could have some of the highest flows of 
water, one of the top three El Ninos of the last 100 years, but 
yet not be able to use any of that water?
    Mr. Lopez. Representative, again, we will pump as much as 
we are able to within the limits that we are constrained to.
    Mr. Calvert. I know you work with the Corps of Engineers, 
and they just finished this project that would allow you to 
have more flexibility in how you operate Folsom Dam. Why can we 
not pump one gallon for storage for every gallon that you 
release out of Folsom? If you are going to release water out of 
there why can we not utilize that for some other purpose other 
than releasing it down into the river?
    Mr. Lopez. First of all, Folsom now is I think the only 
major reservoir within the state that is actually above average 
for this time of season, and it is now operating into the flood 
control----
    Mr. Calvert. OK. So I am not going to argue with the Corps' 
determination of whether or not they think they need to do 
releases, they get nervous if it gets over a certain level and 
they want to protect Sacramento. I not want to flood our 
friends in the Capital down there. But why can we not pump some 
of that water versus none of that water?
    Mr. Lopez. The restriction or the constraints on our 
pumping are not based on what we release out of that reservoir 
or the combination of other reservoirs. It depends oftentimes 
on what is flowing out of the delta and how that impacts what 
is called the negative flow in the old and Middle River, the 
contribution of flow that is coming from the San Joaquin side 
of the valley. If that ends up being reversed too much, that 
ends up, apparently, confusing the fish. And that is one of the 
constraints that is then placed on our ability to pump to our 
capacity.
    Mr. Calvert. So right now you are saying that 100 percent 
of that water has to be sent downstream?
    Mr. Lopez. The water that has to be released for flood 
operations, it is simply released out of there. There is an 
opportunity--in some instances it provides an opportunity for 
us to pump it once it reaches the delta or where our pumps can 
pick it up. It is just one of the other contributors into the 
overall flow in that portion of that delta.
    [Mr. Lopez responded further for the record:]

    I believe not. And I think what has really been controlling 
this has to do with something called the turbidity, how cloudy 
the water is.

    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. You are abdicating 
your own ability to ask questions on this round?
    Mr. Simpson. I will go around. I will do it last.
    Ms. Kaptur. All right, thank you very much.
    Commissioner Lopez, thank you again for your testimony. Let 
me ask you, looking historically, how atypical is the current 
dry spell in the West that is impacting your operations?
    Mr. Lopez. Well, let us talk as of last year because right 
now it is----
    Ms. Kaptur. I am looking over 100 years and there are a lot 
more people today and animals in California and the Western 
States than there were when the BOR was established. But I am 
looking historically, how atypical is the current dry spell?
    Mr. Lopez. It is extremely atypical. Up until it started 
raining this rainy season, the last 4 years represented the 
driest 4 years on record. And if you look back even further 
through tree ring information it was amongst the driest in the 
last 1,200 years. It is not exactly the driest period in 
California.
    On the Colorado River system they are now into their 16th 
year of drought. That represents the driest 16 year period on 
record in the Colorado River system and it is among the driest 
16-year periods in 1,200 years, as evaluated by tree ring data.
    Ms. Kaptur. So based on that statement I would have to 
assume that every year that goes on becomes more difficult for 
your operations because there is less water for more people and 
users. Am I correct?
    Mr. Lopez. Every year that continues dry certainly creates 
more challenges.
    Ms. Kaptur. OK, looking ahead beyond 1 year, does the BOR 
project an option scenario that informs your decisions on water 
availability and water use? In other words, if you look 10 
years, 5 years, 15 years, do you have projections? If this 
continues what options you have to exercise down the road? Does 
that kind of planning scenario exist within the BOR?
    Mr. Lopez. There are, Representative, and we do those sorts 
of planning scenarios for each basin that we operate within.
    Ms. Kaptur. OK.
    Mr. Lopez. It is not one single scenario for all of 
reclamations area, but rather we generally look at those things 
on a basin-by-basin basis.
    Ms. Kaptur. OK, I know we cannot look to just the worst 
years, but assuming this continues for another 10 years, what 
decisions would you be faced with making for the West in each 
of those regions?
    Mr. Lopez. So, right now, without a doubt, the most 
difficult decisions are in California, where there is a growing 
population. So much of our agriculture is in California, there 
is tremendous pressure on the environment as we were just 
talking about.
    Ms. Kaptur. Excuse me, sir. On the agriculture question, 
what percent of the water used in California is for 
agriculture, just approximately?
    Mr. Lopez. I do not know that number, but I can tell you 
how much agriculture there is. It is something like 10 million 
acres of agriculture and we produce something like 60 percent 
of the vegetables for the Nation out of agriculture and 25 
percent of fruits and nuts, I believe. So, it is a huge 
impact----
    Ms. Kaptur. It is over half of the water, is it not, that 
goes to agriculture?
    Mr. Lopez. I am pretty sure that probably is.
    Ms. Kaptur. That is not correct?
    Mr. Valadao. If you subtract the water that is sent out to 
the ocean for the environment you can look at it that way, if 
you want to skew the numbers that direction you can say 50 
percent, but of the total amount of water that falls on the 
state of California, that is not an accurate statement.
    Mr. Lopez. So if we exclude the water that goes out into 
the ocean and what we actually use, what we put to use for 
municipal, industrial, and agricultural uses, agricultural uses 
amounts to about 75 to 80 percent of those totals and that is 
generally true West-wide, including in California.
    Ms. Kaptur. I am just trying to get a feel for it.
    Mr. Lopez. As has been pointed out, quite a lot of water 
either flows out into the ocean or is otherwise used for 
environmental purposes, and that is not accounted for in that 
calculation.
    Ms. Kaptur. And finally, Mr. Commissioner, on this round 
can you comment on the precipitation to date and what is the 
status of Reclamation reservoirs? As a result of the recent 
record-level drought, what can you tell us about your 
reservoirs?
    Mr. Lopez. So, let me talk about California reservoirs in 
particular to begin with. The last 4 years of drought have 
drawn down our reservoirs to record levels and, although we 
have had a good spring so far and a good winter season in terms 
of precipitation, snowpack in many instances is 100 percent of 
historical average upwards to approaching 130 percent of 
historical averages, yet all of our reservoirs save one are 
below where they would be at this time of year in a typical 
year. The one that is not is Folsom Lake--that we were just 
talking about--and that is just slightly over where it would be 
at this time of year.
    Ms. Kaptur. Yield the floor, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Commissioner, Mr. Wolf, thank you for being before us 
today. I represent a district in east Tennessee, so I am very 
intrigued and interested in what you are talking about, the 
water in the West, and I thank you for that discussion. I have 
a question about the Department of Energy and your work with 
the Department of Energy. They have proposed $25 million for 
the creation of a new innovation hub to focus on research and 
development related to desalination. What involvement, I have a 
two-part question, if any, has Reclamation had to date and what 
future involvement, if any, is envisioned for Reclamation with 
respect to DOE's proposal?
    And my second question, what steps are being taken to 
ensure that the two agencies are not duplicating work? For 
instance, which agency will focus on which specific aspects of 
desalination research?
    Mr. Lopez. So, I know that we do have some level of 
collaboration with the Department of Energy and other agencies 
that have similar responsibilities. The White House has 
coordinated a lot of roundtables on an issue-by-issue basis 
relative to desalination in particular. I do not have at the 
top of my head a very good answer beyond that. I can supplement 
it for the record, though.
    Mr. Fleischmann. OK, if you would please provide that to 
us, thank you.
    Commissioner Lopez the budget again includes a significant 
increase for the science and technology program: A 37 percent 
increase above fiscal year 2016, which was a 70 percent 
increase above fiscal year 2015. Can you please discuss what 
specifically this year's increase will accomplish?
    Mr. Lopez. We will be using our science and technology 
program to explore things like desalination, things that can 
reduce the cost, the energy burden of desalination, the 
membranes used in desalination, all of those sorts of issues, 
not only for ocean desalination, but brackish groundwater 
desalination, and the reuse and recycling of otherwise impaired 
waters. We are looking at hydropower and making that more 
efficient as well. We are looking at environmental research, 
how to deal with some of the environmental constraints that we 
are faced with, so that we can continue to maximize our use of 
water without being constrained by environmental uses. Things 
of that nature.
    Mr. Fleischmann. OK. The subcommittee has long been 
interested in getting the agencies to plan for more than just 1 
year at a time, for instance through the development of a 5-
year comprehensive plan. This look at the future is 
particularly important for programs like reclamations that must 
balance maintenance of existing assets with the important new 
investments. Do we know what the agency-wide funding needs will 
be for the next 5 years? Do you see anything coming that will 
cause a change in priorities in any way?
    And my final question will be reclamation's budget has 
remained relatively flat for decades. How does Reclamation 
prioritize needs for existing and new investments when 
developing its budget requests, sir?
    Mr. Lopez. So, Representative, generally speaking, we look 
at our aging infrastructure and we prioritize anticipated needs 
for rehabilitation and rework of aging infrastructure. Much of 
our infrastructure is now 50 to 100 years old. Some of it is 
over 100 years old at this point. In terms of our aging 
infrastructure, we routinely have historically maintained a 5-
year look of what our needs are going to be, and that number 
has ranged from about $2- to 3 billion over the next 5 years 
generally. We fund that through a variety of sources and that 
is taken into account in developing our budget. The request 
actually includes amounts that will support the cost share that 
our partners provide, including hydropower generation partners. 
They provide significant amounts of funding towards that. We 
also have some dam safety monies that are included in keeping 
up some of that infrastructure. So for infrastructure planning 
we do take a look at our needs 5 years out.
    Beyond that there is an increasing interest in Congress to 
have us just look at aging infrastructure investments from a 
different perspective. They have asked us to look at it from 
the perspective of all of our needs, not just in a 5-year 
window, and we are working to develop that sort of data right 
now. Much of our infrastructure data has been transferred to 
some of our partners and we have to take into account their 
ability to help fund the infrastructure as we generate those 
plans, so we are working on all of it.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back. 
Thank you, sir.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Commissioner, thank you for being here today. In another 
life I did a lot of work on CALFED and, given the delay in 
completing a number of water storage studies, Congress in the 
fiscal year 2016 act established deadlines to complete these 
studies. Do you have enough money in your 2017 budget request 
to meet those congressional deadlines for those studies in 
CALFED?
    Mr. Lopez. Mr. Chairman, Representative, thank you for that 
question. I do believe that we do have enough money in our 
budget for those purposes. I will say that we start off behind 
schedule right off the bat. One of the storage studies we were 
given a deadline for, which was at the end of December of last 
year, we have not met that deadline, but it was understood, I 
think, when that deadline was put in there. We have finished 
the technical work on that study right now. That is the 
Temperance Flat study. That is the second of five that are 
called for. It is going through a final administrative review. 
It will be out to Congress relatively shortly, I believe.
    Next, we will be going on to the Sites Reservoir and we 
anticipate that we will be able to get that done in the 
timeframes that are called for in the budget.
    Mr. Visclosky. You said you were behind on the first one. 
Did you reference several different studies in your answer to 
me? I did not understand.
    Mr. Lopez. So, there are five studies----
    Mr. Visclosky. Five studies.
    Mr. Lopez [continuing]. That were called for. The first one 
we have completed. We completed that last year.
    Mr. Visclosky. So we are down to four?
    Mr. Lopez. We are down to four.
    Mr. Visclosky. Got it.
    Mr. Lopez. The next one, the upper San Joaquin or 
Temperance Flat, that is the one that was due at the end of 
December. We are behind on that one.
    Mr. Visclosky. Of 2015?
    Mr. Lopez. Of 2015.
    Mr. Visclosky. OK, and when do you anticipate that will be 
completed?
    Mr. Lopez. So, it is undergoing final administrative 
review. It should be done within the next couple of months is 
my guess.
    Mr. Visclosky. Finally completed?
    Mr. Lopez. And out to Congress. We need to submit that 
report to Congress.
    We have already begun working on the following one, which 
will be Sites Reservoir, and that requires some agreements 
amongst non-Federal funders before we actually get into the 
development of some of that study. It is not a Reclamation 
proposed study--excuse me, not a Reclamation purposed project, 
so it is anticipated that it will be funded by private funders 
and the state of California, and we are trying to work through 
the funding agreement so that we can complete the study on 
that. We are well on our way toward--
    Mr. Visclosky. So, you have a deadline, but what you are 
saying is you will not make a Federal investment in that 
project----
    Mr. Lopez. That is correct.
    Mr. Visclosky [continuing]. Because you are still obligated 
to meet the deadline? And you are suggesting you may have a 
problem not because of budgetary constraints, but because you 
are dealing with private parties in the State of California?
    Mr. Lopez. Mr. Chairman, Representative, I do not think we 
have a problem with it.
    Mr. Visclosky. OK.
    Mr. Lopez. I do think that we have to complete the 
agreements on how that study will be funded, though. But we are 
on track to get those agreements done.
    Mr. Visclosky. And then there are two remaining?
    Mr. Lopez. And then Los Vaqueros is next after that and we 
have not begun on that yet and there is----
    Mr. Visclosky. And will you, and I do not have the 
information in front of me, but although you have not begun, 
will you meet the deadline?
    Mr. Lopez. I believe we felt like we would.
    Mr. Visclosky. And if you do not, it is not because of lack 
of funding?
    Mr. Lopez. That is correct.
    Mr. Visclosky. OK, and then you have one more?
    Mr. Lopez. So, then the final one is B.F. Sisk or it is 
also known as San Luis Low Point, and all of these are being 
done sequentially. We are working on them sequentially so that 
we are not spreading ourselves so thin that we cannot get 
anything done, and we think that we are on pace to get those 
completed.
    Mr. Visclosky. And you would anticipate--and, again, it 
would not be lack of funding--that you would meet that 
congressionally mandated deadline for the fifth one?
    Mr. Lopez. That is correct.
    Mr. Visclosky. OK. If I could, Mr. Chairman, just on tribal 
water rights settlement, again talking about deadlines, there 
are statutory deadlines for completing work under a number of 
the settlements. My understanding is you have about $106.2 
million, you requested for 2017. Is that money adequate to meet 
those settlement deadlines as well as the statutory deadlines?
    Mr. Lopez. Mr. Chairman and Representative, yes, we believe 
it is. So we are working on four settlements right now and we 
have got some significant mandatory funding that was provided 
for a few of those settlements and we have got a funding stream 
that will start up again in 2020 from the Reclamation Water 
Settlement Fund. So, the budget represents the amounts that we 
will need this year and for upcoming years to make sure that we 
fill what we call the ``donut hole'', that money that is needed 
between the mandatory funding and when this new funding stream 
kicks in in 2020. But we do think that we have planned things 
out, including the budgetary aspects, such that we will have 
enough to complete those settlements.
    Mr. Visclosky. OK. So, again, it would not be lack of 
funding.
    Mr. Lopez. It would not.
    Mr. Visclosky. And I would hope you would meet the 
statutory deadlines for those settlements.
    And if I could just one more, could just put it in 
perspective because I have to tell you, I am a blank slate when 
it comes to the negotiations that I assume continue with 
various tribes. I assume there are multiple negotiations going 
on and that takes people to do, time and resources. I do not 
know if I am looking at the right figure, but there is an 
account of about 10.4 million for a number of issues, including 
those negotiations. Are those adequate?
    And let me tell you, and I am just giving you my 
impression, I have had a lot of unsatisfactory negotiations in 
my district because they are either unsatisfactory or because 
they should never have taken that long, and I just want to make 
sure because things come up that in fairness to the tribes 
involved it is not a lack of Federal resources to pursue 
diligently those negotiations that caused that delay.
    So, again, it would be your position money would not cause 
a delay in those negotiations or do you need more money for 
those negotiations?
    Mr. Lopez. We have actually increased the amount of money 
that we have gotten. That $10.4 million represents an increase. 
Last year we got an increase and we requested a larger number 
this year as well to ensure that we did have enough for this.
    I have got to qualify this. We are making sure that we 
manage how many of these negotiations we take on at any one 
time. Obviously there are an awful lot of tribes that have 
unsettled water rights that may be interested in beginning 
those conversations. We are working through those methodically. 
We are not taking them all on at once, we are taking on a 
manageable bite, so that we can continue and get through those, 
but this budget request does represent enough to keep that 
process moving.
    Mr. Visclosky. OK. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Chairman Simpson.
    Commissioner Lopez, thank you for your time, you have taken 
a lot of time to meet with us over the past few years and I 
appreciate every effort you have made to try to resolve the 
situation we have in California.
    For several years now, Reclamation has been telling us that 
the severe chronic water supply shortages affecting the Central 
Valley Project have been the result of drought, not regulation 
and like Calvert mentioned earlier, however, this year we find 
that California is going to have an above average winter, and 
we have so far, and yet it appears that Reclamation is yet 
again struggling to meet its fundamental contractual and 
statutory obligations. The likelihood is high that over one 
million acres of the Nation's most productive farmland will 
again receive no water from the Central Valley Project. To 
what, now, do you attribute Reclamation's inability to meet its 
basic project purposes, that is water for municipal, 
agriculture, refuge and power purposes?
    And then the second part of that is, are there present 
authorities that should be modified or new authorities 
considered to address Reclamation's inability to meet its 
project's purposes?
    Mr. Lopez. Thank you for that question, representative. As 
I have explained, the last 4 years have brought extreme 
drought, and it has certainly impacted our ability to meet 
supply. That impact, even though we are into a relatively wet 
year, the impact of those last 4 years has extended, in 
particular, as it relates to the status of the species that are 
being protected under the biological opinions so those issues 
are affecting our ability to pump right now, as I told 
representative Calvert.
    Mr. Valadao. But back to last year, when you were here, I 
asked you this basically same question and you attributed it to 
drought and a lack of water and over even just the last week, 
we have had inflow as much as 40,000 cubic feet per second. I 
mean that is 40,000 cubic feet per second of water into the 
delta and on that day, we pumped around 2,000 cubic feet per 
second and that was just one day, we had days at 34,000 that we 
pumped barely over 2,000 and then we got down even in the 
30,000 range there were opportunities there that were 
completely missed and one of the things that we do get is an 
email, pretty regularly, that tells us we have a very 
optimistic outlook. The next two days, we are going to see 
5,000 or 4,500 and one actually came in today from Dan Murillo, 
who I think works in the California office, and today he says 
it will see 5,000 and what is funny about it is it will 
actually say--it is emailed on the 11th and it will say that on 
the 10th, that the potential to pump, 4,000 cfs and it did not 
reach anywhere near 4,000, even though the email is the day 
after that actual day.
    It is funny how it never reaches those goals and now they 
are saying maybe 5,000 but I have a funny feeling that when we 
actually get the final report of the actual pumping, it is 
never going to meet those goals as none of these numbers ever 
have.
    I mean the highest I have got here is 3,500 and again, we 
went through a drought and we still are in a drought, you are 
100 percent right but we are seeing a lot of water flow out 
into the ocean and so when we talk about an opportunity to 
capitalize on that and not allow that water to be wasted, once 
it is out in the ocean, it is too late. If we invest in 
desalinization we then go out in to the ocean, grab that water 
and spend a bunch of money to take salt out of it when we 
should have just taken that opportunity and prevented that 
water from going out to the ocean in the first place but we are 
getting a decent amount of rainfall, we are seeing about 105 to 
108 percent. I think the lowest part of the state where we are 
getting rainfall is about 98 percent, so I would say still a 
pretty decent amount of rainfall, but as that rain falls, it 
flows out into the ocean and to say, we are backtracked or 
backlogged because of the drought or it has not taken effect, 
that water goes out into the ocean so there is no way that can 
ever have any positive effect on the last 4 years if it is out 
in the ocean unless we spend, again, a bunch of money to pull 
it out of the ocean, desalinization and then pump it somehow to 
the communities that truly need it so again, are there present 
authorities that should be modified or new authorities 
considered to address Reclamation's inability to meet the 
project's purposes?
    Mr. Lopez. Well, there are a number of things that are 
being considered in California under the State's water 
investment plan that include things like the water fix.
    Mr. Valadao. The water bond or is there something 
different?
    Mr. Lopez. No, the state water plan has things like some of 
the storage projects that we were just talking about. The 
tunnels that we are talking about. A whole bunch of specific 
actions that will make California's water supply more 
resilient.
    Mr. Valadao. So in--back to those projects and what was 
mentioned about the water plan, we are at very low levels in a 
lot of those reservoirs and I think you said only Folsom was up 
at about average right now?
    Mr. Lopez. Right.
    Mr. Valadao. Through the last year, how much water was 
released from the reservoirs for temperature control or 
whatever other reason they might have that the water is 
released from a reservoir to save a species and then flows out 
into the ocean and no other opportunity to use that water ever 
again, do you have a number on how much water was used for 
those types of purposes that were completely lost, that is no 
longer in storage so that we can have the storage numbers that 
we have today?
    Mr. Lopez. I do not have a number for that----
    Mr. Valadao. Can you please get me that number?
    Mr. Lopez. We can get that. The reason why it is very 
difficult to get that is because oftentimes for example, last 
year, we were operating in Shasta to meet temperature needs in 
the river. However, we were also using that for multiple 
purposes. We were releasing water and it was being picked up by 
irrigators downstream of that and in certain instances, we were 
able to pick that up when it got to the delta and pump it to 
the south of the delta so on----
    Mr. Valadao. I would love to see that information.
    Mr. Lopez. We will get it.
    [Mr. Lopez responded for the record:]

    As of late February 2016, water year 2016 releases from 
Reclamation's largest Central Valley Project storage reservoir, 
Lake Shasta on the Sacramento River totaled approximately 
1,183,000 acre feet. As of the same date, water year 2016 
releases from Folsom Dam on the American River totaled 233,000 
acre feet. These releases served multiple purposes, including 
in-stream flow requirements, water quality, water supply, Delta 
outflow and salinity management, flood control and power 
generation. Reclamation's facilities, including the main 
Central Valley Project reservoirs in California, are 
specifically authorized for multiple purposes. Water is 
frequently stored or delivered for dual or simultaneous use for 
multiple project purposes including, but not limited to, 
irrigation, municipal, power, recreation, as well as non-ESA 
fish and wildlife enhancement, so it is often extremely 
difficult to separate the amount of water that is exclusively 
dedicated to environmental compliance purposes. It is worth 
noting that provision of water flow or storage for fish and 
wildlife purposes can sometimes also be delivered for other 
beneficial uses.

    Mr. Valadao. I appreciate that. So the next question. CVPIA 
sets an ambitious goal to at least double the populations and I 
apologize for my pronunciations of the anadromous species in 
the Central Valley of California. This includes the ESA listed 
salmon, steelhead as well as invasive species like the striped 
bass.
    Given that the striped bass are predators of salmon and 
steelhead and it is still doubling the goal of CVPIA 
incompatible with the Endangered Species Act and I have 
actually seen some studies done by water districts there around 
the delta that show as much as 95 percent--98 percent of delta 
smelt are consumed by these striped bass. Is it a good idea for 
us to spend taxpayer resources to protect or add to the 
population of the striped bass?
    Mr. Lopez. I was unaware that we were under an obligation 
to try and double the population of striped bass. That may be 
incorrect on my part but I thought that those fish increase 
numbers were intended to be things like anadromous salmon----
    Mr. Valadao. Thank you for pronouncing that correctly 
because I could not.
    Mr. Lopez. I have got more practice than you do. So, it is 
not my understanding that we are supposed to be trying to 
increase the population of those sorts of invasive species.
    Mr. Valadao. Have you seen and of those studies that show 
what the striped bass do to the populations of delta smelt and 
salmon and other species?
    Mr. Lopez. I have seen them but I have not studied them 
closely. I have seen some of the studies, in particular as they 
relate to smelt. I know that there is a big impact on the smelt 
population.
    Mr. Valadao. Do you have a number to qualify that big 
impact? In the studies that I have seen, like I said earlier, 
about 95 percent of the smelt are consumed by these species and 
it seems like there is no plan or I have not seen a plan yet to 
address that. If we are looking at your ability to protect 
delta smelt from being sucked into the pumps because the delta 
smelt follow the terrain because they need to protect 
themselves from predators, why would we not look at the striped 
bass and address that as an issue to try to protect that 
species instead of cutting off water to so many communities 
throughout the state of California.
    Mr. Lopez. Mr. Chairman and representatives, that is 
something that may make some sense. Earlier when you asked 
about authorities that might be appropriate for us, that is 
generally not something that is within our portfolio. It would 
be one of the fish agencies that would probably do something 
like that.
    Mr. Valadao. All right, thank you. I yield.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Welcome, Commissioner. The extreme 
drought that we have been talking about is a real reminder of 
the need to maximize the use of available resources and it is 
important for the Federal Government to be an effective partner 
with state and local governments to wisely use, reuse, and to 
reclaim water resources and one proven effective tool is the 
Title XVI program which provides a huge return in water supply 
and water quality improvement for relatively very little of 
Federal investment.
    In determining your budget, how did you measure the current 
need for Title XVI and waterSMART grant projects and to what 
extent does the funding level meet the demand in California and 
other western states?
    Mr. Lopez. Recognizing that we are in a fiscally 
constrained environment, we try and make sure that we meet all 
of our other needs and then we build a budget that will still 
allow us to invest in the sort of thing that you are talking 
about.
    For this year, we are requesting $21.5 million for Title 
XVI, and that amount will not meet all of the demand. We will 
put out some opportunity announcements and we will get 
proposals that will exceed that amount but we prioritize those 
based on competitive criteria such that we fund the projects 
that will give us the biggest bang for the buck.
    Ms. Roybal-Allard. So when you say it is not enough to meet 
the demand, will it have enough of an impact or is there not 
even enough to have an impact on what is happening?
    Mr. Lopez. Representative, it definitely has an impact. 
$21.5 million has an impact. This is a cost shared program 
where the Federal Government puts in 25 percent and the non-
Federal partner puts in 75 percent, so this is a significant 
amount of funding towards these sorts of projects when combined 
with the non-Federal cost sharing portion.
    Ms. Roybal-Allard. Well could you provide a status update 
on the implementation of Title XVI and WaterSMART grant 
projects in California? I have a list of questions. Let me just 
ask, you probably have to submit them for the record unless you 
have the answers now. So that would be one is the status 
update.
    And then also how many projects have actually been 
completed? How many are under way and how many have not been 
initiated and what is the timeline in terms of moving forward 
with projects that have not yet been initiated.
    The metropolitan water district plans to work with the Los 
Angeles sanitation districts to develop the largest recycling 
project in the Nation. Other than Title XVI, is the Bureau 
developing long-term plans for Federal incentives or 
partnerships, including increased financial resources such as 
grants and loans to make these projects financially feasible.
    Mr. Lopez. Representative, we have a number of grant 
programs that will work towards the sort of ends that you are 
talking about. Certainly, Title XVI is one important one. We 
have the WaterSMART grant program that is focused on water and 
energy efficiency grants, that is a 50 percent cost share. We 
have requested----
    Ms. Roybal-Allard. I guess, what I am really asking is that 
in addition to those two programs, do you have other programs 
or other plans for creating incentives for these kinds of 
partnerships?
    The reason I am asking is the administration has included 
the WaterSMART program and its priority goals for water 
conservation and yet the funding levels for Title XVI and smart 
grants is pretty flat. It does not really reflect the priority 
of the administration.
    Mr. Lopez. So we have got some programs to incentivize 
doing projects. We are not--we do not have a whole bunch of 
money to fund the programs but we have things like the 
desalination and water purification research we are looking 
into the technologies, the science that will make those things 
more cost effective. We have got the $22.8 million in research 
and development funding that again is looking to make these 
things more cost effective and really demonstrate to entities 
that these are viable means of building their water portfolio 
but we do not have, in general, given the Federal fiscal 
constraints, we are not funding projects, actual constructional 
projects, the way we did historically.
    Historically we built things like Hoover Dam and things of 
that nature. That is not the sort of thing that we are doing 
today.
    Ms. Roybal-Allard. Well the reason I was asking this 
question is because water agencies that serve my constituency 
such as the metropolitan water district are reporting a high 
demand for water recycling and reuse programs but since there 
is just an inadequate Federal offset for it so I would urge, in 
some way for the Bureau to try and align its budget priorities 
with the stated goals of the administration because I think 
this could address the serious issue or part of the serious 
issue that we are dealing with in terms of the drought and what 
needs to be done.
    Mr. Lopez. Representative, I should mention also that your 
point is a good one, without a doubt but our budget represents 
kind of a prudent budget given the fiscal constraints that we 
are all operating under, however, recognizing the validity of 
what you are saying, last year, when we got $100,000,000 for 
drought response, we allocated $9,000,000 of that toward that 
Title XVI program, above and beyond what had been in our budget 
request and $9,000,000 for the WaterSMART program. We also have 
drought response plans, additional money in those sorts of 
things. So yes, the point you are making is a good one.
    Ms. Roybal-Allard. OK, in 2014 and I was pleased that the 
Bureau, along with the municipal water providers in Arizona, 
California, Nevada and Colorado implemented the landmark 
Colorado River system pilot conservation program and, as you 
know, the Colorado River, often called the lifeline of the 
Southwest supplies water to more than 40 million people and 
more than 4 million acres of agricultural land. As early as 
2016, what are the drought conditions in the Colorado River and 
how is the Bureau working with basin states to plan for 
potential shortages through the programs?
    Mr. Lopez. So as I mentioned earlier in response to earlier 
questions, the Colorado River is in its 16th year of drought 
and this is a drought of historic proportions. You mentioned 
the system conservation pilot program project. Those were done 
with funding that was both Federal and non-Federal. I think 
four municipalities funded 2 million dollars apiece and we 
contributed 3 million to that first phase.
    Out of the additional drought monies that we got last year, 
we allocated $3.5 million for a system conservation pilot 
projects that we hope to leverage with our non-Federal 
partners.
    Ms. Roybal-Allard. OK.
    Mr. Lopez. And continue that program. That is $3.5 million 
dollars for the lower Colorado River. That includes the states 
of Nevada, Arizona and California and we have also allocated 
$1.5 million for the upper Colorado River for similar projects.
    Ms. Roybal-Allard. OK, so you are working to continue that 
pilot program?
    Mr. Lopez. We are and in addition, in terms of what we are 
doing to plan for the possibility of shortages--in 2007, we 
developed a coordinated operating agreement about how Lakes 
Mead and Powell would be operated in a coordinated fashion. 
That included agreement amongst the lower basin states as to 
how shortages would be taken if the reservoir continues to go 
down--Lake Mead.
    Ms. Roybal-Allard. OK.
    Mr. Lopez. We are currently exploring the possibility of 
whether we need to make that drought contingency plan much more 
robust and we are having good discussions about that. We are 
not there yet but we are making progress on it.
    Ms. Roybal-Allard. OK, thank you.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman and welcome 
Commissioner. I have a couple of written questions but let me 
digress from my staff work and just ask you a basic question. 
The responsibility of water and its management, is that 
primarily a state's responsibility or is that a Federal 
responsibility, historically?
    Mr. Lopez. Representative, I think that has varied from 
state to state, first of all. In the west, certainly states 
administer and manage water rights within a state but for many 
of the big Reclamation projects, we as the Federal Government 
ended up doing them. These projects were simply too big for 
states and local entities to take on, so that is the role that 
we played historically, so the response to your question is 
that it is a mix of responsibilities, all the way from Federal 
to state to local and to tribal, all of those levels of 
government have different responsibilities.
    Mr. Honda. So the issue of Reclamation, is that a recent 
phenomenon that we have?
    Mr. Lopez. Well----
    Mr. Honda. Historically.
    Mr. Lopez. Well Reclamation was--the Bureau of Reclamation 
or the Reclamation Service was formed in 1902.
    Mr. Honda. OK.
    Mr. Lopez. In recognition that many of these projects were 
simply too large for an individual state or an individual 
irrigation district to take on and that has been our historical 
undertaking and I think that Reclamation has largely been 
responsible for--I do not think it is an exaggeration to say 
that we have contributed extensively towards the settlement of 
the west and the development of the west in terms of the 
availability of that water.
    Mr. Honda. OK, so in terms of reclamation design, and the 
desire of different states, let us say California right now, 
the design of Reclamation, was that basically a state design 
and then the feds came in and helped or was that a joint 
project?
    Mr. Lopez. Are you asking about the Central Valley Project 
in particular or----
    Mr. Honda. We can talk about that one.
    Mr. Lopez. It is a mix of things. I think the answer to 
your question is sometimes a state or even an irrigation 
district began something and then realized that they could not 
do it and they asked for----
    Mr. Honda. OK.
    Mr. Lopez. For assistance, and we often stepped in and 
provided that assistance with an overlay of laws.
    Mr. Honda. But since 1902, with the genesis of the 
Reclamation bill, Reclamation, was that created, in working 
with states, was that because of the lack of water or was it 
because they wanted to be able to manage the water in ways they 
wanted to benefit from?
    See, right now, we are in a drought, so we are talking 
about Reclamation as if it were drought driven. I am asking the 
question what was the driving force in the old days?
    Mr. Lopez. The driving force was the development of the 
West, the building up of the West, the building up of----
    Mr. Honda. Without any respect to drought?
    Mr. Lopez. Well----
    Mr. Honda. I am not saying lack of water.
    Mr. Lopez. Reservoirs, which is what we are known for, Lake 
Mead behind Hoover Dam there, is capable of----
    Mr. Honda. I get that.
    Mr. Lopez. Holding 25 million acre feet, that is designed 
exactly to deal with the drought.
    Mr. Honda. That is flood control or drought?
    Mr. Lopez. Both. That is mostly drought. We store water 
when it is plentiful. I just talked about the fact that there 
have been 16 years of drought. To date in the lower Colorado 
River, there has not been a shortage, as a result of the water 
that we have had in those reservoirs. We stored the water, when 
it was plentiful, and we have been able to expand its use given 
these times of drought.
    Unfortunately, in cases like California, there perhaps is 
not enough storage to be able to do----
    Mr. Honda. That storage is dropping precipitously, and yet 
we are providing the water downstream. The ultimate users of 
the Colorado River originally does not reach Mexico or the Gulf 
of Cortez; is that correct?
    Mr. Lopez. In most years, the Colorado River does not reach 
the----
    Mr. Honda. Correct. So, water management, water control has 
a history to it in terms of how we want to benefit our own 
selves. Where I am going with this is how we developed 
reclamation and how we develop our storage and reuse has been 
based upon the highest and best use, I guess, but with the 
onslaught of the drought, which we have experienced in the past 
but we are experiencing it now in greater numbers, it seems 
like we are talking about storage and water as if the drought 
is over.
    I think folks are not saying the drought is over. I think 
they are saying we have 100 percent plus snow pack, 100 percent 
better than average, but the bottom line is still it does not 
fill our reservoirs and our storage capacities.
    I just wanted to make a distinction when we talk about, you 
know, better than average of rainfall versus how we continue to 
manage our water as one. Two, the infrastructure we have right 
now, whether it is in Central Valley, whether it is from Owens 
Valley, or whether it is in L.A., I think it is a hodgepodge of 
different techniques which may not be sufficient and efficient 
today.
    So, the issue of Reclamation in the early basin, they tried 
to take all the water and send it to the ocean to prevent mud 
slides and things like that, and now they are looking at 
reclamation and conservation and reuse.
    I think looking at redirecting attention, money, and 
resources needs to be looked at, but I guess my question would 
be if that is the case, what responsibility do the cities, the 
state, county, and the feds have in redesigning that so these 
waters could be captured, reused, and stored?
    I guess the other question is these run offs, is there a 
reason why--I guess the question is a lot of the run off goes 
to the ocean, which I do not think is bad, it is good for 
everything that is down river, but I think there is a question 
of how much of that water is being used to store and recharge 
the ground.
    Is that a purview of the Bureau of Reclamation, and what 
are the duties of the local water districts in that effort, 
too?
    Mr. Lopez. In certain instances, it is directly in our 
responsibility, in other instances, there is either a state or 
local entities that have the infrastructure and the facilities 
that they might be able to do something with. It is all over 
the place. It is all over the place, as you correctly point 
out. It is a hodgepodge of entities that own this 
infrastructure.
    It is a hodgepodge of technologies that we use, things like 
dams for storage, desalination, conservation, all of those 
things. All of these are tools in a water management portfolio 
toolbox, and all of them are necessary.
    Mr. Honda. I am not going to suggest that we limit 
agriculture. I think we need to continue it. I do think there 
is a land use issue here that is outside your purview, that 
policy makers like ourselves have to look at, and that is 
continuous building in deserts without the presence of water, 
and I think the administration needs to look at that as a 
Federal issue working with the states.
    If water is becoming more and more of a national issue, if 
not a global issue, I think we need to have a broader national 
policy relative to water, its management, how we look at water 
because it is like fuel, you know. We have to have a different 
look at how we look at fuel and sustainability. Maybe that is 
the bottom line.
    I appreciate your work, but I also appreciate the 
complexity, it seems, of the different entities you have to 
work with, and your budget seems to be pretty small in my 
estimation, to address this. That may be music to your ears, 
but it seems like the policy makers have to rethink what we 
want and are we willing to pay for it.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thanks, Mr. Chairman. As a part of your 
portfolio, there are hydropower generation. Can you expand on 
the options for micro hydropower generation, smaller scale, 
what are the options available? Is it a growing opportunity? 
How does the agency intersect with this? I noticed you have a 
small grant program in this regard, but if you could comment on 
that, it would be helpful.
    Mr. Lopez. So, we have things like a lot of our 
infrastructure portfolio, including, say, canals or conveyance 
systems for water. Any time a gravity moves the water, there is 
an opportunity for putting something on there to generate 
electricity.
    We have been expanding, including through our research 
programs, trying to look at all options to generate additional 
electricity through pipes in canals, things of that nature.
    Mr. Fortenberry. This is in a development phase, there are 
some examples that are potentially scalable, can be duplicated 
across the country?
    Mr. Lopez. There are. We have----
    Mr. Fortenberry. I will give you an example. Along the 
Missouri River, there is a community who I no longer represent 
but my district is proximate to them, in that reach of the 
Missouri, there is a significant elevation drop, and they were 
exploring the possibility in the bend of how could we capture 
the dynamics of that gravity fall and generate electricity.
    This is a community that has had to overcome many, many 
problems, so they are forward thinking. It is exciting to 
listen to them think through this. I think the difficulties, 
the complexities of that are overwhelming for a small 
community, and that is why I am asking the question.
    Are there examples out there that could be scalable to 
similar situations and is this growing, is this an area of your 
responsibility or your projected mission?
    Mr. Lopez. There are examples of those sorts of things that 
I just described. We are looking for ways to promote the 
increased use of that, including things like lease of power 
privilege.
    This is a program that we have where we offer--we provide 
the water to partners, irrigation districts, for example, we 
allow somebody that operates our infrastructure to develop 
hydropower facilities, through a lease of power privilege, we 
give them an opportunity to lease some of the facilities and 
actually put a hydropower generator in a canal.
    Mr. Fortenberry. This is where you have Reclamation 
projects going on already; right?
    Mr. Lopez. That is right.
    Mr. Fortenberry. There is nothing scaled to other options 
across the country based upon your experience or is there?
    Mr. Lopez. It is--our projects are where there are 
Reclamation projects, but it is certainly technology that is 
transferrable anywhere there is water moving through----
    Mr. Fortenberry. Do you have a role, a seat at the table, 
as the Department of Energy and its sustainable renewable 
development portfolio, looking at this? I am curious, help me 
understand it.
    Mr. Lopez. We have a memorandum of understanding with the 
Department of Energy and the Corps of Engineers where we are 
looking at just this sort of thing, how to----
    Mr. Fortenberry. This is fairly new there?
    Mr. Lopez. Our emphasis on it is fairly new; the technology 
for doing it, it has been around.
    Mr. Fortenberry. The technology is forever. We used to do 
this fairly commonly, you can see the water wheels throughout 
the countryside. It is not complicated, it is just a matter of 
will, I would assume, and prioritization; is that correct?
    Mr. Lopez. I think that is correct, and finances.
    Mr. Fortenberry. You have a grant program for this?
    Mr. Lopez. We have a water and energy efficiency grant 
program. That is a competitive based program. I think it is 
available within Reclamation states.
    Mr. Fortenberry. OK. Do you have any river restoration 
grants let in Nebraska?
    Mr. Lopez. I do not know that we have river restoration 
grants. We have river restoration partnerships. On the Platte 
River, we are a partner in the Platte River recovery 
implementation program. That is a major program on the Platte 
River. That is actually working quite well. We contribute 
extensively in collaboration with state and local entities.
    Mr. Fortenberry. We have a very unique situation, for the 
benefit of the committee, in Nebraska, in that we have a 
municipal infrastructure called natural resource districts. 
They are actually a tax levying district with elected officials 
who do environmental and conservation work, very long, well 
established process for doing this. That is probably who you 
have partnered with on the Platte River recovery set of 
options.
    There are other reclamation type projects going on, 
restoration type projects going on along the Missouri as well. 
Again, I was curious as to where you might be interacting with 
those.
    Mr. Lopez. On almost any river in the areas that we serve, 
we are involved in these sorts of activities. Almost all of 
them, with the local water users, the states, the Tribes, 
whoever has an interest in that resource.
    Mr. Fortenberry. One more quick question, Mr. Chairman, and 
then I am done. Can I refer this local community to you? They 
are actually doing analysis on the potential for hydropower 
there. Do you have the capacity to take an inquiry from them? 
Is this the right place in the shop?
    Mr. Lopez. You can send it to me and I will find the right 
person in our shop to send it to. I am not the right person but 
we do have that right person.
    Mr. Fortenberry. Thank you very much.
    Mr. Simpson. Thank you, Commissioner. In fiscal year 2012, 
Reclamation was directed to assemble data on pipeline 
reliability for a variety types of pipes, and to conduct an 
analysis of the performance of these types of pipes. More than 
4 years later, that analysis is still not done. Can you please 
provide the committee with an update on the status of that 
analysis and when will this report be completed and submitted 
to Congress?
    Also, in fiscal year 2016, the Consolidated Appropriations 
Act directed Reclamation to contract with one of the Department 
of Energy's national laboratories to develop performance data 
related to zinc coated ductile iron pipe applications in 
certain soils. What has Reclamation done to date to comply with 
this directive?
    Mr. Lopez. Mr. Chairman, first of all, to begin with, the 
survey that was called was, it took a very long time to find an 
entity that would take this issue on. We were at the last 
stages of negotiating a contract when the entity that we were 
working with decided suddenly they were not interested in doing 
it.
    We shifted gears and went back to the old proposals that we 
had received, and finally in November of last year, we entered 
into--we signed a contract with the University of Virginia, I 
think.
    Mr. Wolf. Virginia Tech.
    Mr. Lopez. Virginia Tech, to complete that survey. I think 
that will be completed--is it late this year? I am not sure of 
the time frame. I will verify the time frame. We are under 
contract to complete the survey.
    Secondly, as to working with one of the national labs, we 
have been in contact with the Department of Energy, letting 
them know about this language that was in the appropriations 
bill, and we are working with them to transfer that money to 
them.
    The direction that we have gotten is to not try to 
influence the outcome of that, so we have requested that the 
Department of Energy actually be the entity that decides what 
national lab will take that on and oversee that work.
    Mr. Simpson. Appreciate that. This is the first year 
Reclamation is requesting funding for phase two grants under 
their cooperative watershed management program. However, the 
authorization is for grants up to $1 million. The budget 
request is for only $1.5 million total for phase two grants.
    Does Reclamation intend to award only one or two grants, or 
will there be several grants at amounts well below the 
authorized level? The authorization for phase two grants seems 
to envision these grantees will receive funding in multiple 
years, perhaps without re-competing each year. How does 
Reclamation intend to implement this aspect of the phase two 
grants' authorization?
    Mr. Lopez. Thank you for that question, Mr. Chairman. Up 
until now, we have been working on phase one of that program. 
Phase one was simply where we worked with entities to organize 
themselves into working watershed groups that would then 
propose projects and that sort of thing.
    Phase two is where we will help them implement some of 
those projects. During this current fiscal year, 2016, we are 
in the process of developing criteria under which we will put 
out the funding requests for the projects that will come under 
phase 2.
    The request that we got for fiscal year 2017 is modest, as 
you have noted, and we do not intend to just fund one or two 
large projects. Given that this is a relatively new program, we 
are going to try to fund multiple relatively small projects, 
something where the Federal contribution would be something on 
the order of $100,000, so we can get some experience at this.
    We are suggesting they apply on a phase-by-phase basis, 
something they can complete in a year, and then compete again 
for subsequent phases in subsequent years.
    Mr. Simpson. Appreciate that. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Commissioner, several 
times we have discussed today Lake Mead, and you mentioned Lake 
Mead and the condition of the Colorado River Basin and so 
forth. Could you talk about the changing conditions of Lake 
Mead? Can you add a little additional explanatory note here to 
the record?
    Mr. Lopez. Sure.
    Ms. Kaptur. What has been happening to Lake Mead?
    Mr. Lopez. So, up until probably the late 1990s anyway, 
Lake Mead was pretty close to full, and then we started soon 
after 2000, we started into this prolonged drought. In that 
time frame, the lake level has continued to drop, but it is a 
huge reservoir. It holds something like 25 million acre feet. 
It holds an awful lot of water. It has dropped, I think--one of 
the more recent statistics I have heard was--it dropped to 
something like 39 percent of capacity.
    There is less than half of the available supply there. As 
it goes down, the concern is it could continue to go down, and 
all of a sudden be going down very quickly. That is the reason 
we have been working on some drought contingency plans, 
something whereby the users would voluntarily agree to reduce 
their use and slow down the drop in the elevation until such 
time that the hydrology turns around.
    Ms. Kaptur. Has it ever been in this condition before?
    Mr. Lopez. So, it is the lowest since it was filled in the 
1930s. It was completed in about 1935 or so.
    Mr. Simpson. Would the gentlelady yield for just a minute?
    Ms. Kaptur. I would be happy to yield.
    Mr. Simpson. Is it totally going down because of the 
drought or is there increased usage upstream so there is not as 
much water going in also? Is it a combination of both those 
things?
    Mr. Lopez. This year we were getting a very high 
precipitation and Lakes Mead and Powell--which is upstream of 
that and also a huge reservoir--both of them were filled in the 
late 1990's. Since then, as I have said, since 2000, we have 
been in drought and those have both steadily gone down.
    Ms. Kaptur. Do you that desalination is inevitable to 
supply the needs of people and business in the years ahead?
    Mr. Lopez. I do think that we are going to use that as one 
part of our water supply portfolio. It is already being used in 
California and other places. Certainly it is being used around 
the world, in dry areas around the world.
    Ms. Kaptur. At what point do we reach a tipping point at 
the BOR where people say you know what, the system is too 
risky. If we do not get rain for two years or precipitation for 
five years, at what point do we have contingency plans and ways 
of providing water for ongoing activities within your 17 state 
region?
    Mr. Lopez. There are contingency plans right now. In 
virtually all of the systems that we operate, we have 
contingency plans for droughts. Where we can, we're making them 
more robust as we learn that the droughts are continuing.
    Ms. Kaptur. You know, I want to say this for the record, 
because I am actually a land planner by training. I did that 
long, for many, many years, long before I ever came to 
Congress. And within the Department of Agriculture, we have a 
major publication that was done called Land, Food and People. I 
have never seen it from the BOR, but maybe it exists. And what 
it talks about is the relationship between human food 
consumption and the available land and technologies we have to 
date to supply a given number of people, both domestically and 
then globally.
    And late last quarter, Newsweek had a major article in 
Newsweek about increasing global population and how we have to 
accelerate our agricultural technologies in order to meet 
growing food demand. That did not even involve water. That was 
just land and people and trying to keep that relationship so 
that we have enough to feed. And there are many places on the 
globe today that do not have enough food. But on the water 
question, it is interesting. I have never seen anything out of 
the bureau called water, food and people because with more 
people, you have more animals and you need more production.
    And it seems to me that the pressures in the dry west are 
going to continue to grow. I would commend to your attention 
that really I think important work by the Department of 
Agriculture. If a similar study, it is an analytical report. If 
it exists for the BOR, I would love to see it.
    Mr. Lopez. So Reclamation has a program called the Basin 
Study Program wherein basin by basin, river basin by river 
basin, we are analyzing supply and demand, current and 
projecting out 50 years, projecting what those supply and 
demands are going to be 50 years out--including the growth, 
either human growth or agriculture, how it might change, as 
best we know it. Obviously, these are projections. We also take 
into account as best we know, climate change. And we have got, 
we have been doing that. To date, we have funded--I believe it 
is--24 such plans. And 13 of those are complete. I think three 
of those thirteen still have not been released. They are under 
final review. The remainder are works in progress. But next 
month we will be putting out a Secure Water Act Report that 
will summarize what we have learned from all of those basin 
studies to date.
    Those reports are due every five years and we will have 
that out next month. And it will give the current knowledge 
that we have based on what we have learned about from those 
basin studies, from west wide climate risk assessments and 
things of that nature. So it is not a report by the title that 
you have mentioned, but it addresses the issues that you are 
talking about.
    Ms. Kaptur. What was interesting on the food report is that 
we cannot continue to serve an exponentially growing population 
with the current architecture of production globally. And so we 
are going to have to perfect our technology in more 
technologically advanced growing systems to meet the need. In 
that regard, desalination with the Department of Energy in 
looking forward, they have proposed a $25 million for the 
creation of a new innovation hub to focus on research and 
development related to desalination. What involvement, if any, 
has Reclamation had to date, and what future involvement is 
envisioned with respect to DOE's proposal, and what steps are 
being taken to ensure that the two agencies are not duplicating 
work. For instance, will each agency focus on specific aspects 
of desalination research? I cannot see how we get out of this 
conundrum without desalination. Maybe someone from the west has 
a different idea. But not at the levels of population growth 
that we are experiencing and the shortages and with what is 
going on with climate change. I mean there is a lot that has to 
change.
    Mr. Lopez. The Office of Science and Technology is 
coordinating the efforts of various entities, including ours 
and the Department of Energy's on these fronts. I cannot give 
you a lot more detail than that right now, but there is, we are 
keeping track of what each of us are doing to make sure that we 
are not duplicating efforts.
    Ms. Kaptur. All right, thank you. I have one other question 
on this round. Commissioner, there are several ways to address 
water supply in times of limited water resource, water 
efficiency being one and water recycling being another one, and 
new surface projects. How does your budget propose to balance 
these and how much is Reclamation proposing to spend on new dam 
construction, water efficiency and water recycling in the 
proposed budget? What is the balance there?
    Mr. Lopez. We are not doing a lot of construction these 
days on storage projects. What we are doing right now is we are 
completing a number of storage studies that then we will work 
with--those storage studies will be presented to Congress and 
Congress will either authorize them or not and see if they want 
us to go forward with them.
    In all instances, we anticipate that if those are going to 
go forward, we are going to have to find non-Federal partners. 
In certain instances, as we were talking about earlier in 
California, for example, the Sites Reservoir, we anticipate 
that those, the thought even from the local entities is that it 
will not be a Federal investment, but rather we will provide 
some of the technical background and expertise and the 
investment will come from local entities.
    We are participating in water conservation and water 
recycling efforts--as I have talked about--in the Title 16 and 
water smart grants and those sorts of efforts. Those, I can 
give you numbers for those in our budget, in the $21.5 to $23.5 
million for each of those programs, in that range. But our 
construction budget, as I have said is, we are not doing a lot 
of new construction. What we are focused on is maintaining the 
infrastructure portfolio that we do have.
    Ms. Kaptur. Thank you. You've just been excellent, Thank 
you.
    Mr. Simpson. Before I call on Mr. Valadao, let me ask you, 
and follow up on just that. If non-Federal partners are going 
to pay for it, do you do the technical expertise and the 
design, do they then own it?
    Mr. Lopez. They would own it.
    Mr. Simpson. They make the decisions of how it is operated 
and so forth?
    Mr. Lopez. Oftentimes, in the case of California, it is an 
extremely complex system. The state owns some, there are local 
entities that own some, or it is a Federal entity that own 
some. And all of these rely on the same sources in the Bay 
Delta, on the reservoirs that are upstream to catch that water, 
so while an entity may own this, everybody has to work 
collaboratively with all of those other entities to make this a 
functional system or it's just going to--nobody can do it 
alone.
    Mr. Simpson. OK. Mr. Valadao.
    Mr. Valadao. Mr. Chairman, I feel like I need to invite 
everybody out to my part of the country in California. We need 
to work on the scheduling because every year at this time, we 
actually have our World Ag Expo, which does not have anything 
on desalination there, but it has all the dealers talking about 
and showing off the new developments in agriculture, the latest 
technologies in drip and things like that. One of the 
interesting things is that in the last couple of years, the 
opinions have changed a little bit within some government 
agencies.
    For years they said, oh, you need to get more advanced, you 
need drip, you need sprinklers, all these other types. But now 
with groundwater being such an issue, I have actually had some 
agencies send out letters and recommend that we start to flood 
irrigate again to recharge the groundwater. So it is always 
interesting how opinions change, and in my short life, I am 38, 
that I have already seen it start to bounce back a little bit.
    But my main question is on the fiscal year 2016, the Act 
included $100,000 in additional funding for western drought 
response. I would like to hear exactly how Reclamation plans to 
use this additional funding. And additionally, Reclamation was 
directed to allocate the additional funding to those activities 
that would have the most direct, most immediate and largest 
impact on extending limited water supplies during current 
drought conditions. What kind of analysis did Reclamation do, 
use to determine that the selected activities would meet the 
Congressional directive?
    Mr. Lopez. I am going to focus my answer primarily on what 
we have allocated to California but I can get broader if you 
like. Because California, as you know, was the epicenter. That 
is where we focused most of our allocations. For the Central 
Valley Project, out of that $100 million in drought funding, we 
allocated $37.9 million to that. And here are some of the 
things that we allocated money to, monitoring for fish, 
obviously knowing where those fish are is going to impact when 
we can pump, just what we were talking about earlier. Salinity 
barriers to keep the salinity from coming in to the Delta and 
hopefully limit or at least reduce the amount of water that we 
have to allow to push that salinity out. Last year, as I think 
you know. Folsom Reservoir dropped to such a level that there 
was concern that we would not be able to meet the water needs 
of the downstream communities. So we leased some pumps to make 
sure that we could do that. We have got some money in there to 
acquire those pumps permanently. We have got some pump back 
facilities in the Friant-Kern Canal so that we can move that 
water up to the canal if we need to. We have got some monies 
allocated toward refuge water supply.
    Mr. Valadao. Is that buying water?
    Mr. Lopez. It is buying water and also conveyances to make 
sure that what we buy we get to where it is needed more 
effectively, otherwise we are just losing water.
    Mr. Valadao. And some water I think was purchased from 
Westlands Water District and now is owed back. Am I wrong on 
that?
    Mr. Lopez. I do not know the specifics of it. What we are 
focused on right now are some acquisitions that would be of a 
more permanent nature.
    Mr. Valadao. OK.
    Mr. Lopez. And then there is some critical habitat 
restoration for salmon that we're looking at in Battle Creek 
area. All of these are kind of contingent--where we would spend 
the money contingently. We have, in the language that we put in 
this spending plan, we tried to assure that we left ourselves 
room to deal with emergent situations. If we know that there is 
an emergency need for someplace else, we'll be able to 
reallocate or refocus some of these monies. The analysis that 
we have, it is largely based on the experience that we have had 
over the last couple of years. We have known what has been 
required to be able to operate efficiently and those are where 
we focused our monies.
    Mr. Valadao. On those barriers, is this new construction or 
some sort of--I mean you cannot just build a barrier overnight.
    Mr. Lopez. It is a riprap barrier across that channel that 
is installed as the hydrology starts drying up and it is taken 
out as it starts wetting up again. It is not something that can 
be left in place.
    Mr. Valadao. OK. And totally off the wall question here, 
but I did a flyover with some folks over some of our reservoirs 
over this past summer. And there were a lot of reservoirs that 
were obviously very low. But what really stood out to me was, 
and if anybody has ever been on a boat and used a fish finder, 
there is a lot of peaks and valleys in the bottom of those 
reservoirs. At a point in time when reservoirs are so low why 
would not we have just sent in some trucks and hauled some of 
that dirt out and increase capacity? It seems like the easiest 
way to increase storage.
    Mr. Lopez. The cost of that would be incredible to really 
make a big dent in increasing the volume that you could make in 
there. And it would not even be a very quick process, at least 
for us. We would have to undergo some sort of a NEPA process, 
even to analyze the effects of trucking materials out of there. 
When we do a NEPA, we have to analyze all of the effects that 
we are going to have on the people and the resources in that 
vicinity.
    Mr. Valadao. OK. Because there is, I was surprised by how 
big some of these mountains looked inside of these reservoirs 
and they take up a lot of space. And you always see 
opportunities for construction and things like that where dirt 
is needed to build things up. If it is a road, if it is around 
the Delta, we always hear about the barriers that are needed in 
support because they are getting so old and the potential for 
flooding and things like that. It seems like there is a lot of 
opportunity for that dirt to be used and there might even be a 
market for it. It might be something that would work very well 
for all of us, so maybe it is something we could look into. But 
that is all I have, so I appreciate your time. Thank you, 
Chairman.
    Mr. Lopez. Thank you.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. I just have one follow up question. 
Commissioner Lopez, you are not able to determine at this time 
if your budget was going to meet the potential demand for Title 
16 monies. Can you tell us whether or not the appropriations in 
2015 and 2016 met the demand?
    Mr. Lopez. So I want to again just say that our budget 
reflects the reality of the fiscal constraints that we live in. 
Obviously, if we had more monies, those monies could be used. 
In 2015 and 2016, you have added additional monies. Congress 
has seen fit to add some additional monies and we have 
allocated some additional monies to Title 16.
    In both instances, I think that the requests for Title 16 
money have exceeded the amounts that we have had available to 
us. We have analyzed those proposals to make sure that we fund 
the ones that will generate the most bang for the buck. So 
that's how we have allocated it out.
    Ms. Roybal-Allard. OK. So even with the increase, it still 
did not meet demand in the previous years?
    Mr. Lopez. That is correct. Earlier I was asked about Title 
16 projects and I do not have the numbers exactly, but there is 
something like 53 authorized projects that are out there right 
now. And each of those has a cap of up to $20 million of 
Federal funds. I think that there is 11 that are still ongoing. 
Some of them are--and there is another 11 that I think have 
been completed. Is that right?
    Mr. Wolf. I think it's 21 and 21.
    Mr. Lopez. Twenty-one and 21, excuse me. And then there was 
11 that are inactive at this point. So those are the ones that 
have been authorized. I think we have certainly gotten a lot of 
questions from entities that are interested in new 
authorizations to date. Really, what we are doing if anything 
is just provided feasibility studies, let people know when 
something like that is feasible.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Again, thank you Mr. Chairman. Earlier I talked 
about the runoffs and I was just wondering, to capture runoffs 
like in urban areas, or even in the agricultural areas, are 
there restrictions from using the runoff to recharge 
groundwater? Are there steps in order to be able to do that? 
Because it seems like the bulk of our infrastructure in terms 
of water management is to create concrete pathways for water to 
go to the sea and if we want to do capture some of this, are 
there restrictions that prevent us from using most of the 
discharge or the runoffs to be used as recharged into 
groundwater aquifers.
    Mr. Lopez. So in particular in urban environments, there 
are regulations as to how runoff should be captured and 
treated. In urban environments, oftentimes the runoff will have 
oil or other chemicals mixed into it, often a lot of trash and 
that sort of thing. So there are processes that have to be met 
to try and clean up some of that water. I am not sure the 
requirements on actually being able to use that for recharge. 
Obviously, any time that you impound any water, whether you 
want to or not, unless it is a lined impoundment structure, 
some of that is going to recharge and some of it is going to 
percolate into the groundwater and be captured.
    Similarly, in agricultural areas, some of the runoff may 
have agricultural chemicals in it, fertilizers, pesticides, 
those sorts of things. Those are much harder to--those are not 
things that you can simply skim off. But places where you have 
heavy agriculture and drain systems, the waters that you do 
collect in those are oftentimes impaired. But similarly they 
also will percolate into the ground.
    Mr. Honda. So if we see so much water going out and in 
California, we divert about 43 million acre feet of water, 34 
of that is for agriculture and nine is for urban use. Do we 
know how much water is being returned to the ocean and do we 
know--is there any studies where we can recapture just some of 
that runoff? To recharge the groundwater so the urban areas 
will be able to depend less on transferred water?
    Mr. Lopez. So we do have information like that, the quality 
of that information varies from place to place, perhaps where 
we understand that, or at least we know much water is going out 
to the ocean. Most clearly it's right in the Delta, where we 
try and pump water, and whatever we do not pump it goes out 
into the ocean, and there are a lot of people tracking just how 
much is going into the ocean.
    Mr. Honda. Some of it is pumped to southern California, 
too?
    Mr. Lopez. It is. It is water that largely originates in 
northern California, and then it is then pumped down to 
southern California.
    Mr. Honda. But in terms of runoffs in urban areas like 
L.A., there is a lot of jurisdictions, is there any one study 
that tell us what these--what is the cost? I guess I am looking 
for Federal rule in helping the large L.A. Basin to deal with 
that runoff, because it has an upstream impact to those who, 
you know, in canal and everything else like that.
    Mr. Lopez. I am unfamiliar with any study of that nature, 
but I would be almost--I would almost be certain that the city 
of L.A., for example, would have a study of that nature because 
they maintain--as you have noted their flood infrastructure, 
they know much the water moves through those things.
    Mr. Honda. Well, it will be multi-jurisdictional, because 
L.A. city is not the only jurisdiction in the basin.
    Mr. Lopez. Right.
    Mr. Honda. Is there a way to--are you saying that we should 
go L.A. city to get that, or?
    Mr. Lopez. We may have information on that, I can check to 
see with at.
    Mr. Honda. OK. I would appreciate that.
    [Mr. Lopez responded for the record:]

    In that study, concept development consisted of identifying 
and developing stormwater capture options in a collaborative 
manner with stakeholders and the public. Various adaptation 
strategies were identified to enhance water supply and address 
impacts from climate change. The developed concepts were 
evaluated at the appraisal level and included both enhancements 
to the existing water conservation and flood infrastructure, as 
well as new structural and nonstructural alternatives.
    Capital and operations and maintenance (O&M) costs were 
developed for each of the four project groups, and the costs 
were annualized over a 50-year period. The resulting annual 
cost per acre-foot of stormwater conserved could be used as a 
preliminary estimate of the cost effectiveness of each project 
group with respect to water supply.
    All of the project groups provide multiple benefits apart 
from just the capture of stormwater. In addition to stormwater 
conservation, complementary benefits may include, but are not 
limited to, increased flood risk management, improved water 
quality, recreation, habitat/connectivity, ecosystem function, 
and enhancing local climate resiliency.
    Reclamation is pleased to have been a partner with the Los 
Angeles County Flood Control District (LACFCD) and our other 
study partners in this effort. Reclamation works with our local 
partners to bring our technical expertise to these problems and 
concerns and works collaboratively with everyone to identify 
future actions that the local partners may want to implement to 
solve their water supply problems. There is no intent that 
Reclamation will continue to be actively involved in any future 
action based on this study effort.
    The U.S. Department of the Interior, Bureau of Reclamation 
(Reclamation) has been working in a collaborative partnership 
with the Los Angeles County Flood Control District (LACFCD) for 
the past 3 years to prepare the Los Angeles Basin Stormwater 
Conservation Study. The purpose of the L.A. Basin Study is to 
investigate long-range water conservation and flood risk 
management impacts caused by projected changes in the climate 
and population in the Los Angeles region. The L.A. Basin Study 
provides recommendations for potential modifications and 
changes to the existing regional stormwater capture system, as 
well as for the development of new facilities and practices, 
which could help to resolve future water supply and flood risk 
management issues. The primary focus of the Study is to address 
the potential of the local stormwater capture system to 
increase the amount of water captured.
    One of the component studies of the overall L.A. Basin 
Study (Task 5, Infrastructure and Operations Concepts Report, 
dated December 2015) identifies and develops both structural 
and nonstructural (i.e., plans and policies) concepts to manage 
stormwater under projected climate conditions for the Los 
Angeles Basin watersheds, which includes: Los Angeles River, 
San Gabriel River, South Santa Monica Bay, North Santa Monica 
Bay, Ballona Creek, Malibu Creek, and Dominguez Channel/Los 
Angeles Harbor watersheds (Basin Study Watersheds).

    Mr. Honda. One last question, Mr. Chairman. The canal that 
goes from the Bay Delta to southern California is a long 
distanced and it--has there ever been a study as far as the 
amount of evaporation that occurs on the canal, and capturing 
that, you know, how much water would be recaptured if we 
covered it, and how much water will we save?
    Mr. Lopez. That can help. That canal sends the water to 
L.A. and San Diego. That is part of state's water system, not 
ours. However, for all of these systems there are analyses that 
show how much water has evaporated off of those, and certainly 
there can be, if they are covered as you are suggesting, that 
water could be saved, oftentimes it is just a matter of 
economics. It is expensive to do so.
    [Mr. Lopez responded for the record:]

    To the best of our knowledge, there has never been a study 
done by the Bureau of Reclamation or other Federal agencies 
addressing the placement of a cover over the California 
Aqueduct running from the San Luis Reservoir to the points of 
delivery over the Angeles Mountains to Southern California. The 
Metropolitan Water District of Southern California has done 
some work related to covering the exposed areas along the 250 
mile Colorado River Aqueduct that runs from Parker Dam located 
on the Colorado River to the terminal reservoir, Lake Matthews, 
located in Riverside County, California. Their analysis showed 
them that the economic costs of covering the aqueduct cost more 
than the amount of water being saved. Their analysis also 
showed that the amount of evaporation in their canal was less 
than the amount of water evaporating from their Diamond Valley 
Reservoir located near the Town of Hemet, CA.
    The one other water district that has had some experience 
in running water through an enclosed aqueduct is the City of 
Los Angeles Department of Water and Power (DWP). DWP diverts 
water from the tributaries in the Owens Valley from above the 
City of Bishop, CA in an enclosed aqueduct from there to the 
north end of the San Fernando Valley. The entire aqueduct is 
covered from the point of diversion. We do not know if they 
have ever estimated the amount of water saved from using an 
exposed canal, but they have been using the enclosed system 
from the first day of operation.

    Mr. Honda. I guess the question would be over long-term is 
it cheaper to recapture the water and spend the money to 
recapture it, and have additional water to go down South, as 
part of a larger strategy. If you have that information, we 
would like to see that.
    Mr. Lopez. We will see what we have in that regard. I would 
mention that I had an occasion to fly over some of L.A.'s water 
system, and many of their local reservoirs, they have now taken 
to covering them with plastic balls, to reduce the evaporation 
off of those, with the same idea in mind. It is not a rigid 
cover, but it is just sitting on top.
    Mr. Honda. Sure.
    Mr. Lopez. And reduce the evaporation.
    Mr. Honda. Thank you. Thank you Mr. Commissioner.
    Mr. Simpson. As you can tell we have 4 members from 
California on this Committee, and consequently when California 
has a drought, we have a hearing. I appreciate you addressing 
that. It is obviously a very important issue to the west and to 
the country, but I want to talk about another little parochial 
issue here in the State of Idaho--I really want to start the 
discussion more than expect any answers because this is 
probably a fairly new discussion with you, and whether you are 
even aware of the discussions that have been going on in Idaho, 
yet, I do not know.
    The State of Idaho is working vigorously to address its 
water supply issues with the Snake River Basin. The Eastern 
Snake River Aquifer which is hydrologically connected to the 
Snake River is Idaho's largest and most strategic aquifer 
resources, and my Ranking Member, Ms. Kaptur, may be interested 
to know that it is often compared to Lake Erie in water volume.
    For the past 6 decades ground water levels in this aquifer 
have been declining which has impacted surface flows in the 
Snake River. The surface water users and groundwater users in 
the Snake River Basin above Miller Dam have entered into an 
agreement that seeks to stabilize the groundwater levels in the 
Eastern Snake Plain Aquifer. Under the agreement groundwater 
users have volunteered to reduce their consumptive uses of 
water from the aquifer by 240,000-acre feed of roughly 12 
percent.
    The State of Idaho is also committing to funding a managed 
recharged program that seeks to recharge 250,000-acre feed to 
the aquifer on an average annual basis. Since the Bureau of 
Reclamation operates storage reservoirs in the Upper Snake 
River Basin, I would like to think the Bureau would have a 
significant interest in this matter.
    Mr. Commissioner, could you please describe the extent to 
which reclamation has been involved in aquifer recharge efforts 
in Idaho generally, and with the significant settlements 
specifically, and also what could reclamation do, moving 
forward, to continue to help stabilize the Eastern Snake Plain 
Aquifer? Do you foresee any obstacles to reclamations 
involvement besides perhaps time and money to conduct any 
necessary reviews? Would any activities envision to date 
require Federal legislation to move forward?
    I know this is a new subject, but I wanted to get it on the 
record, because the discussion is going to go forward. I met 
with a bunch of state legislators, and attorneys and the 
Attorney General's Office that have been pushing this about 
three weeks ago when I was in Idaho.
    They said they had not talked to Reclamation yet. I said, 
well, you know, before you can, you need to get Reclamation 
involved in this, and you need to get Bureau of Land and 
Management involved, because recharge sites would be on BLM 
land. One of the things that they indicated would have to be 
addressed is that Reclamation facilities, canals, could only be 
used for irrigation purposes.
    That that might have to be amended to allow them to use 
those facilities for recharge purposes to get water out to the 
recharge sites. Do you have any comments on that?
    Mr. Lopez. I do. I do have a little bit of knowledge about 
this, and I know that, perhaps, even since your water users' 
meeting--last week I know that our Regional Director, up in 
that area, Lorri Lee, met with some of those water users, and 
they are talking about the very issues that you are talking 
about. There are some things that we can be of assistance with.
    As you note we have got an interest, in that ground water 
use impacts surface water supply and our users and our ability 
to meet our contractual obligations. So we are interested in 
working with everyone involved in this thing.
    I think we have the mechanisms by which we could enter 
into, if necessary, say Warren Act contract such that we could 
use some of our existing canals and infrastructure to 
facilitate these sorts of activities, as long as it does not 
adversely impact our ability to meet our contractual 
obligations. And this is generally done off-season so, it is 
possible.
    Mr. Simpson. Right.
    Mr. Lopez. Some of the reservoirs that we operate, 
Palisades in particular, require that we not release water 
during the winter to assure that there is sufficient water 
carrying over into the spring. However, when we have been able 
to project that, the hydrology is such that we are pretty 
confident it is going to fill again, we have been able to 
release, and we have been willing to waive those sorts of 
requirements. Obviously, we do so making sure that any such 
operations would be consistent with long-term ESA compliance, 
that sort of thing.
    We have got a great set of partners to work with out there 
with Minidoka Irrigation District, and the A & B Irrigation 
District. We have got a beautiful relationship with them. Some 
of the canals that would need to be used for this sort of 
recharge type activities are not ours, so we would have to work 
with the private entities to arrange for that sort of thing, 
but we are willing to do so.
    We have a great relationship with BLM, being a sister 
agency as well, and I think we could help facilitate those 
discussions as well. So I think there is plenty of stuff that 
we can do, and a lot of it is already going on.
    Mr. Simpson. Well, I appreciate that. It is, as you know, 
probably better than any of us, that debates between surface 
water users and groundwater users can sometimes get a little 
ugly, and in Idaho we started managing the conjunctively, 
something that California needs to start doing. But it is a 
difficult issue to address.
    Ever since we started the adjudication process, the first 
day I got into politics, the first issue was adjudication. I 
mean years and years ago. So I appreciate your willingness to 
work with us, and that is really all I am asking, is a 
commitment that you will keep working with these individuals to 
address the concerns. Because I am glad to see that these 
people are actually trying to cooperate, and find a way to get 
the aquifer recharged, because otherwise, what you are going to 
have is some junior water right users that are just cut off, 
zero. And nobody wants to see that.
    One other thing; it has been suggested that Reclamation's 
WaterSMART Grants Program, may be one source to financial 
assistance. What other activities related to aquifer eligible 
under the WaterSMART Grants Program, and if so what types of 
activities are we talking about?
    Mr. Lopez. So the WaterSMART Grant is intended just to 
provide efficiencies and conserve water. And we generally do 
not specify what needs to happen with those things. Rather, the 
entities that apply for those, they get creative and they put 
forward a proposal that emphasizes the conservation aspects of 
their project. If they are successful, we fund 50 percent of 
the project, and then we just need 50 percent from some non-
Federal entity. It could be the water districts, it could be 
the state, but there is plenty of ways that we could work with 
individuals on it.
    Interestingly, we have also got some drought-related 
planning monies, and those might be usable in that regard too. 
First off, we want to create drought resiliency plans, and then 
once projects are identified under those plans, there is an 
opportunity to fund some of those in subsequent years, so that 
might be a mechanism as well, because ultimately you are 
talking about just that--managing these two supplies 
conjunctively, and creating a plan for future droughts.
    I think those are options, but this tells me that the 
drought-funding opportunity announcement was just released 
yesterday. So that is something that is current, and could be 
sought after now. The WaterSMART Grants will be, I think those 
will be out in June, or something like that are they not?
    Mr. Wolf. Yes. We have already received all the 
applications for that, so we have sufficient applications to 
fund it, but we will be doing a new funding app between the 
announcement and 2017 as well.
    Mr. Simpson. Got it.
    Ms. Kaptur. Could I ask a question? Shall I?
    Mr. Simpson. Sure.
    Ms. Kaptur. At the same time as those types of grants are 
released, I assume the community as you serve also have equal 
access to environmental protection agency grants, and so forth, 
relating to water. Do they not? Are State Revolving Funds----
    Mr. Lopez. They do. There is multiple funding sources that 
are out there available depending on the type of project that 
needs to be done. And so one area in California, in particular, 
we are partnering with the Department of Agriculture on NRCS 
grants, to promote agricultural efficiencies, that sort of 
thing. So ours are not the only set of grants that are out 
there, but ours focus on water conservation and efficiencies.
    Mr. Simpson. Well, I appreciate your willingness to work 
with the water users in the State of Idaho in trying to address 
this. I think they are trying to be responsible, and I am sure 
they are trying to be responsible and address a problem in a 
long-term manner, and hopefully solve it, but your involvement 
and advice is vitally important, and I appreciate all the work 
you have done in Idaho for a lot of projects. You are a very 
important agency in the State of Idaho.
    Mr. Lopez. Thank you, Mr. Chairman.
    Mr. Simpson. Any other questions? Marcy.
    Mr. Lopez. Mr. Chairman, I just wanted to say, you asked 
about our commitment to work with you and Idaho on this, and 
absolutely you have that commitment.
    Mr. Simpson. Thank you.
    Mr. Lopez. I had the pleasure of going up there to the 
dedication ceremony for the Minidoka Dam, and that was a 
beautiful setting and a beautiful ceremony, so thank you.
    Mr. Simpson. Yes. Appreciate it.
    Ms. Kaptur. Mr. Lopez, I am very impressed with your 
working knowledge of the instrumentality that you manage. You 
really did a good job today. Thank you. And, Mr. Wolf, thank 
you very much as well.
    I just have to make this comment, Mr. Chairman, because you 
have been so gracious to me, as someone who does not live in 
California, and nor in a western state, I just have to say how 
members live in parallel universes, so many times.
    And there is no instrumentality. I am envious as I sit here 
and I listen to the work of the Bureau over 100 years, 200 
years, in the west. We in the Great Lakes, have a massive body 
of fresh water, the largest on the earth, and we have no 
instrumentality that manages the various entities that are 
important for us to have clean water, and nor the investments, 
so bridled to our future.
    I happen to represent the largest watershed in the Great 
Lakes, it extends over three states, I do not represent those 
other states, nor the nation of Canada which also drains into 
our watershed; and that lack of management is a great obstacle 
to us.
    So about a year ago my home community, I just share this 
because there maybe others listening to hearing today. About a 
year ago my home community of Toledo had a shut off of water 
for three days to over half-a-million people, because of toxic 
algae blooms that were feared to be in the water system. It was 
unbelievable in a community with only one water intake. And we 
have not dug our way out of that because we have no management 
entity, that actually can extend an umbrella over this really 
vast region, and it is not a perfect situation because of that.
    You are a great convener; you can bring others to the 
table. That kind of management instrument does not exist in our 
region. Secondly, I just want to say over the weekend I spent 
time in Flint, Michigan, with our colleagues, and Kildee and 
others, Brenda Lawrence, and so forth, to look at Flint, 
Michigan, with this tremendous problem of lead in the water, 
and to see the lack of effective Federal response and because 
of the lack of effective state response, was very, very 
troubling to me.
    A community that has 99,000 people, gigantic infrastructure 
needs, and no real--a city under emergency control by the state 
that was mishandled. You know, I look at all that and I am 
thinking, it is 2016 and we cannot manage fresh water in the 
Great Lakes.
    So I sort of listened to you and I look at, you know, what 
has been to be able done in the west, and I think about the 
next 100 years in this country, and how we are going to manage 
our fresh water resource. We are going to have 500 million 
people by 2050, and we are going to have to figure out how to 
be much more wise about the way that we manage our assets. And 
I just put that on the record, because the west is very 
fortunate to have you, and I am sure you have all these 
lawsuits and problems and all the rest, but at least you can be 
more comprehensive.
    You actually have a map of your watersheds, and you have 
measurements. Guess what? We do not. And so the ability of the 
Great Lakes to be a full player is rather messy right now, with 
all the environmental challenges that we face. So I look at 
your instrumentality and I am very, very envious, and to see 
what has been done in the west, and the instrumentalities we 
have, I believe, are too weak to meet the real need that faces 
as a country.
    So thank you for what you have done. And thank you, Mr. 
Chairman, for allowing me to put that on the record.
    Mr. Lopez. Thank you. Thank you for your kind words.
    Mr. Simpson. I understand how that developed over the 
years, because in the east actually they were trying to get rid 
of water. They almost had too much, that is why you have 
riparian water rights, you go into the west, we were trying to 
conserve everything because we were in an arid desert, and 
consequently it was an agency that created the infrastructure 
to do that, and that is why we have prior appropriation water 
rights, which is entirely different than riparian water rights.
    Ms. Kaptur. It is true.
    Mr. Simpson. And it was just the development of the 
country, but you are right, you need something to oversee this 
town. I appreciate you being here today, and look forward to 
working with you on your budget, and making sure we can move 
this Agency forward, and the job that the American people 
expect you to do, Congress expects you to do, and you expect to 
do. So, appreciate it.
    Mr. Lopez. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    Mr. Lopez. Thank you.
    Mr. Simpson. We are adjourned.
    [Questions submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

                                         Friday, February 26, 2016.

                 UNITED STATES ARMY CORPS OF ENGINEERS

                               WITNESSES

JO ELLEN DARCY, ASSISTANT SECRETARY ARMY (CIVIL WORKS), OF THE UNITED 
    STATES ARMY CORPS OF ENGINEERS
LIEUTENANT GENERAL THOMAS P. BOSTICK, CHIEF OF ENGINEERS, UNITED STATES 
    ARMY CORPS OF ENGINEERS
    Mr. Simpson. I would like to call the hearing to order. 
Good morning, everyone. I would like to dispense with a little 
bit of administrative business.
    While he is not here right now, I would like to ask 
unanimous consent to allow one of our full committee members, 
Mr. Quigley, to join us on the dais and to ask questions of the 
witnesses once all subcommittee members have had an 
opportunity. Without objection, we will proceed with the 
hearing.
    We are here today to look at the fiscal year 2017 budget 
request for the Civil Works Program for the U.S. Army Corps of 
Engineers.
    I would like to welcome our witnesses, Assistant Secretary 
of the Army for Civil Works, Jo-Ellen Darcy, and Commanding 
General and Chief of Engineers, Lieutenant General Thomas 
Bostick. Welcome.
    General Bostick, I understand you are set to retire in May.
    General Bostick. I am.
    Mr. Simpson. This likely will be the last time we see you 
as a witness before our committee. I want to thank you for your 
service to the Corps, and the Army, and specifically, to the 
Nation as a whole. You have been Chief of Engineers during some 
challenging times, but throughout you have remained accessible, 
professional, and focused on finding solutions. I wish you well 
in your next endeavors.
    Secretary Darcy, please do not think your hard work and 
dedication are not also very much appreciated, they are, but 
you are not off the hook quite yet, so we may see you again.
    With a Presidential and a congressional election coming up 
this year, who knows if any of us are going to be here next 
year.
    The Corps' Civil Works Program comprises a wide variety of 
water resource activities essential to the public safety, 
economic, and environmental goals of our Nation. This committee 
works hard each year to build an appropriations bill that 
supports a robust program, and that will strike a good balance 
across mission areas.
    The Fiscal Year 2016 Act provided almost $6 billion to the 
Corps, including the highest level ever for Harbor Maintenance 
Trust Fund activities and full use of the estimated annual 
revenues in the Inland Waterways Trust Funds.
    Congress clearly recognizes the importance of the Civil 
Works Program. Unfortunately, the same cannot be said of the 
Administration. The fiscal year 2017 budget request would slash 
funding by almost $1.4 billion. This budget is $100 million 
below even the post-sequestration level in fiscal year 2013, 
and if enacted, would be the lowest funding level since fiscal 
year 2004. The President's proposed budget would be the lowest 
funding levels since fiscal year 2004.
    No aspect of the Civil Works Program would be spared. All 
four main project-based accounts would see cuts ranging from 14 
to 41 percent; overall flood control and navigation activities 
would be cut by 27 percent, and 26 percent, respectively, and 
even the environmental restoration activities would be reduced 
by 19 percent.
    The irresponsibility of this budget request makes the 
Committee's job more difficult, but we will continue our 
efforts to support a strong Civil Works Program, one that will 
strengthen the economy, enhance public safety, and promote 
healthy ecosystems.
    Again, I would like to welcome our witnesses to the 
subcommittee. Secretary Darcy, please ensure that the questions 
for the record and any supporting information requests are 
submitted to the subcommittee and are delivered in final form 
to us no later than 4 weeks from the time you receive them. 
Members who have additional questions for the record will have 
until close of business Tuesday to provide them to the 
subcommittee office.
    With that, I will turn to Ms. Kaptur for her opening 
comments.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Kaptur. Thank you, Mr. Chairman. We welcome Assistant 
Secretary Darcy and General Bostick back to your subcommittee. 
We appreciate you appearing before our subcommittee this 
morning.
    General, from myself and our side as you prepare to leave 
the Corps, I really want to take the opportunity to thank you 
for all you have done in serving our Nation, and wish you the 
very, very best in the years ahead. It has been a pleasure to 
work with you.
    General Bostick. Thank you very much.
    Ms. Kaptur. Thank you. The Corps' Civil Works mission 
builds a stronger and more secure America, while providing 
great opportunity for job creation, environmental stewardship, 
and even recreation across our Nation.
    Federal support of water resource projects creates 
construction jobs meanwhile, and economic benefits that 
encourage local business, governments, and individuals to 
cooperate and make investments in their own communities. You 
have really helped to build a modern America.
    This country once aspired to great horizons in the area of 
civil works and infrastructure. I think of several examples 
certainly, the Federal highway system, which is not under your 
jurisdiction, and the dams which provide power in the West, and 
certainly in my region, the locks and dams that have created 
the Saint Lawrence Seaway Development Corporation, and has a 
reciprocal down the Mississippi River corridor. America 
imagined great in those days.
    We now have before us a budget request which really slow 
walks vital improvements in our water infrastructure, and 
essentially continues a very troubling trend of infrastructure 
negligence. This is happening in many arenas in our country, 
and it is not a development I welcome.
    Last year, Congress supported a nearly $1.3 billion 
increase for the Corps, and in light of shrinking investments 
in our Nation, whose population is slated to be 500 million 
people by 2050, this budget request is disappointing to say the 
least.
    We simply have to keep up with a modernizing America.
    While the Corps of Engineers does life-saving work, which I 
very much value, I believe more attention must be paid to the 
policies of the Corps, some of which have not been 
substantially changed in the last several decades.
    Two areas come to mind immediately. One is the lack of 
innovative financing in how we as a nation finance projects. 
Secondly, how we dispose of the football fields of dredge 
material that the Corps digs up every year.
    As a Great Lakes member, I would ask you to address serious 
and widely held concerns about Great Lakes' dredging needs, 
which will continue to become more complex in the years ahead 
with the changing nature of climate, the severe threat of Asian 
carp to exterminate our freshwater fish populations in the 
entire Great Lakes system, and a more visionary and sustainable 
environmental commitment that currently appears to be lacking 
within the Corps, especially in light of the freshwater crisis 
due to toxic algal blooms that hit Toledo, Ohio, a year ago. 
There is a need for innovative cross-agency thinking.
    Moreover, Great Lakes' ports are critical to the regional 
and national economy supporting our critical manufacturing 
base, and we must keep these ports open for business. However, 
this need not come at the expense of our water security, the 
safety and quality of our drinking water, or the environmental 
integrity of this precious unparalleled freshwater ecosystem.
    I expect that you will speak to these concerns, and I look 
forward to your discussion today. Thank you, and thank you, Mr. 
Chairman.
    Mr. Simpson. Thank you. We are fortunate to have our full 
committee chairman with us today, Mr. Rogers. Mr. Rogers.
    The Chairman. Thank you, Mr. Chairman. Welcome, Ms. Darcy, 
back to the committee. General Bostick, welcome again, and we 
wish you all the good luck in the new chapter you are about to 
write in your life. Thank you for serving your country, and we 
wish you well.
    The projects managed by the Corps, of course, have a 
crucial economic impact on many communities across the country, 
repairing dams on Corps' lakes, protecting communities from 
flooding, and so on. The Corps plays a central role in ensuring 
the safety of the places we call home.
    In my district in Kentucky, the Corps has completed a 
historic infrastructure repair project on Wolf Creek Dam. You 
conducted critical flood mitigation projects, enabling tourism 
and recreational activities on Lake Cumberland.
    As we have discussed before, the Corps recently prioritized 
the town of Martin, Kentucky, which for years has lived under 
the constant threat of flooding. I appreciate the Corps' 
attention to that most important project and hope that we can 
continue to work collaboratively to ensure that the citizens of 
Martin reside on safe ground.
    Unfortunately, in recent years, much of the good work 
performed by the Corps has been overshadowed by bureaucratic 
hurdles and regulatory overreach that are not just slowing 
economic growth, but are killing jobs across the country.
    First, you have allowed an overtly partisan White House and 
the EPA to dictate to you your regulatory agenda, to usurp the 
authority provided by Congress to the Corps under the Clean 
Water Act.
    This administration has been relentlessly targeting coal 
operations, kowtowing to and coordinating with extreme 
environmental organizations, both through burdensome new rules 
and their arguably unlawful enforcement. The effects have been 
dramatic and devastating, not as strict as in a disaster zone.
    In the years before this President took office, we had over 
15,000 coal miners in the eastern part of my district, 
supporting their families and their communities with stable, 
higher paying jobs, living where they wanted to live. Now, we 
have around 5,000 jobs. We have lost 10,000 in my district 
alone, laid off, trying to find a job at McDonald's, most 
unsuccessfully, trying to support the kids, family, mortgages, 
car payments, and the like.
    Despite that staggering unemployment and economic 
depression, this administration continues to march on with its 
keep-it-in-the-ground strategy with regard to coal. Not only do 
these policies completely turn these coal communities upside 
down, they weaken our national economic energy policies by 
neglecting our most plentiful and reliable natural resource.
    Time and again, I have seen job creators in my district and 
around the country struggle to do business under this wrong-
headed regulatory regime. They have seen their permit 
applications left to languish and decisions on their lease 
modifications needlessly delayed. Each new regulation, each 
delay of an important permit decision threatens much needed 
jobs and leads to uncertainty for thousands of others.
    This is no way to do business. It is no way to grow an 
economy. As I have said many times before, the Waters of the 
United States, WOTUS, is a prime example of this backwards, 
job-killing regulatory overreach strategy.
    The Corps and the EPA joined forces--no, that is not the 
right word--the Corps surrendered to the EPA to expand Federal 
jurisdiction over every so-called ``waterway'' that they could 
get their hands on, and we are feeling the impact of that 
regulatory overreach in my district and across the country, 
trying to expand jurisdiction to a so-called ``stream'' that is 
neither navigable or running.
    They are trying to exert jurisdiction over arid--what do 
you call those out West--the so-called ``former streams''--
arroyos? With no possibility of water. The courts rightly have 
called you down. You are overreaching your authority time and 
again and it means nothing to your people.
    Not only does this rule burden coal companies and farmers 
and developers and homeowners with hefty compliance costs, but 
we now know that the administration illegally used taxpayer 
dollars to try to convince the American people that it was a 
good idea when it was still under review.
    This demonstrates a lack of transparency and accountability 
on the part of these agencies, and an unwillingness to 
understand how their actions impact real lives and real 
communities. Both Congress and the courts have fired back 
against that rule, and I believe it is time for you to move on 
as well.
    Second, in addition to destroying coal jobs in Appalachia 
and elsewhere, I fear the Corps has almost lost sight of its 
role in economic development and its commitment to its 
recreation mission.
    As you know, the local economies in Appalachia are 
struggling against this onslaught of environmental regulations, 
people in southern and eastern Kentucky are hard at work trying 
to replace those jobs, and recreation and tourism is an 
important part of that effort.
    Unfortunately, the Corps has put up roadblock after 
roadblock every time my constituents want to pursue a job-
creating opportunity that requires their involvement. I am 
continually perplexed at the Corps' reluctance to support 
tourism and recreation on Corps' lakes and rivers when instead 
they should be fast-tracking every opportunity for development 
in this economically depressed region.
    These topics are crucial to struggling economies in rural 
Appalachia and for coal communities across the country.
    My hope is that we can set the right priorities in the 
budget in order to ensure that the Corps is enabling the 
success of these communities, not holding them back from 
achieving their potential.
    I look forward to hearing your testimony so we can try to 
understand the Corps' plans to address these important issues. 
Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Secretary Darcy, the floor is 
yours.
    Ms. Darcy. Good morning. Thank you, Chairman Rogers, and 
thank you, Chairman Simpson, and distinguished members of the 
subcommittee. Thank you for the opportunity today to present 
the President's budget for the Civil Works Program of the Army 
Corps of Engineers for fiscal year 2017.
    This year's Civil Works budget reflects the 
administration's priorities through targeted investments that 
will reduce the risk of flood impacts in communities, 
facilitate waterborne transportation, restore significant 
aquatic ecosystems, generate low-cost renewable hydropower, and 
support American jobs.
    It supports a Civil Works Program that relies on a 
foundation of strong relationships between the Corps and our 
local communities, which allows us to work together to meet the 
water resources needs.
    The budget continues ongoing efforts to provide local 
communities with technical and planning assistance to enable 
them to reduce their flood risks, including nonstructural 
approaches. We are promoting the resilience of communities to 
respond to the impacts of climate change.
    We are investing in research, planning, vulnerability 
assessments, pilot projects and evaluations of the value and 
performance of nonstructural and natural measures.
    The budget provides funding to maintain and improve our 
efforts on sustainability, ensuring that we are doing what we 
can to efficiently use our available resources and reduce the 
Corps' carbon footprint. For example, we are increasing 
renewable electricity consumption, reducing greenhouse gas 
emissions, and reducing our non-tactical-vehicle petroleum 
consumption. We are also advancing our sustainability efforts 
by using innovative financing techniques such as energy savings 
performance contracts to improve the sustainability of our 
facilities and projects.
    We are making important investments to promote the 
sustainable management of the lands around Corps' facilities by 
providing funds to update the plans that govern how we manage 
our facilities and to help combat invasive species.
    The budget also focuses on maintaining the water resources 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehabilitate it, hand it over to others, or 
retire it.
    Here are some of the funding highlights. The 2017 Civil 
Works budget provides $4.62 billion in gross discretionary 
appropriations for the Army Civil Works Program, focusing on 
investments that will yield high economic and environmental 
returns, or address a significant risk to public safety.
    The budget focuses funding on our three major mission 
areas, including 42 percent to commercial navigation, 26 
percent to flood and storm management reduction projects, and 8 
percent to aquatic ecosystem restoration.
    Other practical, effective, and sound investments include 
allocating $196 million to hydropower, $103 million to clean up 
sites contaminated during the early years of the Nation's 
nuclear weapons program, and $200 million for regulatory 
activities.
    Overall, the budget funds 33 construction projects, six of 
them to completion. It also funds 49 feasibility studies, 12 of 
those to completion. The budget also includes one new 
construction start, Mud Mountain Dam in Washington State, which 
is addressing biological opinion-related work.
    The budget funds inland waterways capital investments at 
$923 million, of which $33.75 million will be derived from the 
Inland Waterways Trust Fund.
    The budget provides $951 million from the Harbor 
Maintenance Trust Fund to maintain coastal channels and related 
work, which is the highest amount ever budgeted.
    The budget also provides $35.5 million for the Levee Safety 
Program, which will help ensure that all Federal levees are 
safe and in line with the Federal Emergency Management 
Administration's standards. This initiative will provide non-
Federal entities with access to levee data that will inform 
them of all these safety issues.
    The Corps has a diverse set of tools and approaches to 
working with local communities, whether this means funding 
projects with our cost-sharing partners or providing planning 
assistance and technical expertise to help communities make 
better informed decisions.
    The 2017 budget continues to contribute to this Nation's 
environmental restoration, and provides funding to restore 
several large ecosystems that have been the focus of 
interagency collaboration. They include $10 million for the 
California Bay Delta, $66 million for the Chesapeake Bay, $106 
million for the Everglades, $15 million in the Great Lakes, and 
$13 million in the Gulf Coast.
    Other funded Corps efforts include mitigation of impacts to 
the fish in the Columbia River Basin and priority work in the 
Upper Mississippi and Missouri Rivers.
    Finally, the budget provides $6.5 million for the Corps' 
Veterans Curation Program, which was started in 2009 with 
support from the American Recovery and Reinvestment Act. The 
program offers veterans the opportunity to learn tangible 
skills and gain experience by rehabilitating and preserving 
federally owned or administered archeological collections found 
at Corps' projects.
    This program's unique training for future employment has 
meant that 90 percent of its more than 245 graduates have gone 
on to find permanent employment or return to universities and 
colleges to continue their education.
    I look forward to working with this committee to advance 
the Civil Works Program, and I thank you for your attention 
this morning.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Simpson. Thank you, Secretary. General Bostick.
    General Bostick. Chairman Rogers and Chairman Simpson, 
Ranking Member Kaptur, members of this subcommittee, thank you 
for the opportunity to testify today.
    I love the Corps of Engineers and the Army, and it has been 
my great honor and privilege to serve the Nation these past 38 
years.
    First, I would like to thank you for your great support of 
the Civil Works Program. This subcommittee has been essential 
to the progress we have made over the years.
    The details of the 2017 Civil Works' budget are outlined in 
my written testimony. We also recently submitted the work plan 
that allocates all of the additional funds that Congress 
appropriated for the Civil Works Program.
    The Corps has done its very best to utilize the additional 
funding in the most responsible and efficient manner to address 
the outstanding water resource needs of the Nation.
    Today, I would like to provide an update on our campaign 
plan and our four goals, and some of my perspectives on the 
water resource challenges facing our Nation.
    First, we support national security. We like to talk about 
the investment in Civil Works' projects, not the costs. It is 
an investment in the work we do, our economy, and the 
protections provided to the American people. It is also an 
investment in our people, and whether they serve in Iraq, 
Afghanistan, Pakistan, India, or in over 100 countries around 
the globe, our people are making a difference.
    As part of our Civil Works' transformation, we continue to 
improve and modernize the project planning process. Our 
planning modernization's objective is to manage a risk-informed 
planning program that delivers timely, cost-effective, and 
high-quality water resources investment recommendations.
    Since the inception of Civil Works' transformation in 2008, 
59 Chiefs' Reports have been completed with recommendations of 
over $30 billion in water resource investments. During the 
first 4 years of Civil Works' transformation, 19 Chiefs' 
Reports were completed. In the last 4 years, that number is 40, 
more than doubling our progress. We are on schedule to complete 
another 12 reports by the end of the fiscal year.
    While we have made great progress, we can and must continue 
to improve.
    Our third campaign goal is reduce disaster risks. The Corps 
continues to perform extremely well in this area. We had 
historic floods in 2011, 2015, and continued again in 2016. 
Because the systems performed as designed, many Americans do 
not even realize the magnitude of these floods.
    In addition to the fact that no one died in these events, 
the return on investment is $45 to every $1 invested in the 
Mississippi River and Tributaries system. Approximately $234 
billion of damages have been prevented because of these 
investments.
    Despite these investments, our Nation's infrastructure is 
aging. The American Society of Civil Engineers rates the 
Nation's infrastructure at an overall grade of D+. The Corps is 
managing over $225 billion worth of that infrastructure.
    Funding across the Federal Government remains very 
challenging. In order to complete the construction projects 
that we are currently budgeting, we would require an additional 
$19.7 billion. With construction funding at just over $1 
billion a year, it will take nearly 20 years to complete the 
current projects.
    As a nation, we must continue to think creatively and 
innovatively about how we gain support beyond the Federal 
Government so that we can complete these projects in a more 
reasonable time.
    Finally, our last goal is prepare for tomorrow. This is 
about our people. In the nearly 4 years I have been in command, 
I have traveled to all 43 districts and 9 divisions to see the 
vital work that the Corps is doing at home and abroad.
    I remain convinced that we have exceptionally skilled and 
talented people in our organization. I am very proud of the 
people who serve in the Army Corps of Engineers and our fellow 
teammates, including the military, civilian, local, Federal, 
and, of course, our contractors.
    As we have done for over 240 years, the U.S. Army Corps of 
Engineers remains focused on engineering solutions for the 
Nation's toughest challenges.
    Thank you again for the opportunity today. I look forward 
to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
    Mr. Simpson. Thank you for your testimony. General, you 
pointed out some of the backlog problems that we face in this 
country and why this committee is so concerned about the budget 
request that was submitted. I am almost tempted to ask what the 
original request you submitted to OMB was, but I know you fully 
support the President's budget, so I will not ask that.
    Mr. Rogers.
    The Chairman. The Corps holds the primary authority to 
issue what is called Section 404 permits under the Clean Water 
Act, which authorize the discharge of dredge material in mining 
operations. That so-called ``Section 404 permit application 
process'' has gone crazy. I do not know whether it is 
incompetence or an intent to completely shut down mining of 
coal, whichever, you have done it.
    Most of it has to do with getting a permit to mine. Now, 
you are requiring applicants to provide additional copies of 
the application at a cost of around $500 or so per application. 
Then you are requiring the applicant to provide multiple copies 
of their application so they can be sent out by you to 
environmental groups who are trying to stop the operation, at 
the expense of the applicant.
    That is not the America I thought I used to know. You are 
forcing a person with an economic decision to finance his 
enemies. How can you do that?
    Ms. Darcy. Chairman Rogers, the Corps does not require 
additional copies of permit applications. They require one. I 
am not sure of the requirement of which you are referring, but 
it is my understanding that our permit requirements are for one 
copy of an application.
    General Bostick. They are also able to submit their permit 
on email or on a CD. A paper copy is not required.
    The Chairman. Here is an email from Darvin Messer, Team 
Leader, U.S. Army Corps of Engineers, Fort Worth District, to a 
Philip saying ``We need two additional copies of the 
application for the continuation of the EC FOIA.'' Who is 
telling the truth, this person or you?
    General Bostick. I do not know the context of that, but I 
would be happy to take a look at it and follow up with you.
    The Chairman. Here is another one from Jim to ``All'' 
saying the same thing. There is a deadline when people can 
object to an application, but you have told your people even if 
the objection comes in after the deadline, we are going to go 
ahead and honor it anyway. How can you defend that?
    Ms. Darcy. When there is additional information that is 
submitted during the consideration of granting of a permit, the 
information that is submitted is considered. We have a public 
comment period of 30 days for the initial public comment period 
of an application.
    The Chairman. That means nothing. If you file a protest on 
it 45 days after it has been submitted, well past the deadline, 
you still honor that, at the expense of the applicant.
    A letter from Jennifer Walker, Huntington District, to 
Philip, whoever that is. ``Although the comments came in a bit 
late, we still have to respond to them,'' it says.
    It is plain the thing you are working on with the EPA has 
completely shut down the mining of coal, and, boy, have you 
been spectacularly successful. I have 10,000 miners in my 
district alone laid off. They have kids. They have car 
payments. They have house payments. They have food bills to pay 
and the like.
    Now, that is the 404 permit process. Can you look into 
these issues and get back with us? I really want answers to 
these questions that I have raised. This is not for TV. This is 
for real. I am shooting real bullets here.
    Ms. Darcy. Congressman, we will get back to you on both the 
duplication for the request for the applications as well as the 
reviewing of comments that come in after the deadline.
    The Chairman. Also, add to that list interminable delays in 
reviewing and issuing permits. It is practically impossible to 
get a permit to mine through your agency and EPA. I am just 
very chagrined that the Corps of Engineers has kowtowed to the 
EPA. You are so afraid of a lawsuit that you let the EPA bully 
you into doing whatever they want to do. You are welcome to 
comment.
    Ms. Darcy. I think your reference is to the Clean Water Act 
rule that we jointly developed with the Environmental 
Protection Agency. It was a jointly developed rule with the 
Army Corps of Engineers, with the Army, EPA and the 
Administration.
    The Chairman. I do not have other questions, Mr. Chairman. 
I yield back.
    General Bostick. I just wanted to comment on the permits, 
Chairman. This is a very challenging process. We have been 
working it very hard, hiring more people and training our 
folks. We have seen median processing times come down from 
about 1,500 days to about 70 days between 2014 and 2015.
    Granted, there are a lot less permits being proposed 
because of the situation with the coal industry, but we are 
working vigorously to try to be as efficient as we can in 
getting those out.
    The Chairman. Well, there are so few coal companies left. 
You should have a ball getting them out on time because there 
are so few of them to review. Thank you.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. I thank you, Mr. Chairman. Let me thank the 
General and Secretary Darcy for meeting the deadline of the 
2015 appropriations bill and producing the report through the 
Corps of Engineers to Congress on the Western Lake Erie Basin 
challenge, which is a challenge to the entirety of Lake Erie, 
the shallowest of the Great Lakes and the southern most of the 
Great Lakes. I find the report excellent.
    What I am wondering, General, is based on your current 
authority, if I were to ask you to come and find a way through 
the Corps to chair a tristate meeting, perhaps even involving 
Canada because of the importance of Ontario Province to what is 
happening in Lake Erie with nutrient runoffs, would you be able 
to help us pull together a meeting of stakeholders in all three 
states and including the Province of Ontario? Could you lead 
that discussion in our part of the country?
    General Bostick. We would be happy to do that.
    Ms. Kaptur. I really, really appreciate that. We face quite 
a complex challenge out there. I thank you very much, and I 
thank your staff for producing the report, and thank you, 
Secretary Darcy, also. I know how hard you have pushed to try 
to help us on this.
    I wanted to move to the topic of Asian carp that continues 
to knock on the door of our Great Lakes, threatening our $7 
billion fishery. Recently, juvenile fish were found in the U.S. 
river system, primarily the Mississippi, but not only the 
Mississippi. They are in the Ohio River now, too. In the 
Mississippi River systems, some 40 miles upstream of their 
previous location as they head to Chicago.
    I am very concerned about the implications of this 
movement. I personally favor hydrologic separation at the 
Brandon Road Lock and Dam. I am wondering if you could update 
us on the status of that project, and your own view of what is 
happening with this invasion by the Asian carp coming north to 
literally the largest Great Lakes freshwater fishery that 
exists. It is quite a deep concern for people in our part of 
the country.
    Ms. Darcy. The juvenile carp that you mentioned is a 
concern, but what we are continuing to do in working with the 
U.S. Fish and Wildlife Service, as well as jointly with the 
Illinois DNR and the Michigan DNR, is to continue to monitor 
for the juveniles.
    The adult population of the Asian carp have not moved in 
about 8 years, which is good news. There is a larger amount of 
juveniles this year. I think part of the reason is because the 
conditions this past year have been favorable for propagation 
of the juveniles, which is why we are seeing more this year. We 
are continuing to especially monitor their movement and their 
growth.
    Ms. Kaptur. What do you think is the most significant 
action the Federal Government in any department or agency has 
taken to date in order to get rid of them?
    I was talking to somebody from the Fish and Wildlife 
Service this week at the Great Lakes meeting that occurred 
here, and he said, Marcy, that river is tested more, you know, 
we sample there more. I said sampling is not enough. All you 
are doing is finding that they are moving further and further 
north.
    What department or agency is doing the most to get rid of 
them?
    Ms. Darcy. Collaboratively we are doing a lot of research 
on ways to get rid of them, including complex noise. Is that 
the right term? Complex noise research means how the fish react 
to certain noises, whether they will retreat. Our barriers are 
up and running, and we are researching what other kinds of 
pesticides and chemicals that could be used and developed to 
target just Asian carp as opposed to other fishes in the river.
    The Fish and Wildlife Service has the expertise on the 
fish, so we are working closely with them as far as monitoring 
and whether monitoring will continue to show where the fish 
are.
    We are also doing research at ERDC Lab in Vicksburg on 
other ways to combat the fish, whether it is through chemicals 
or other kinds of barriers, or other kinds of alteration of 
habitat. All these things are being looked at, in conjunction 
with the USGS, Fish and Wildlife Service, and, again, our ERDC 
Lab in Vicksburg.
    Ms. Kaptur. How many years would it take to have an 
operational barrier at Brandon Road?
    Ms. Darcy. We are currently studying that as a result of 
our GLMRIS report. If it is determined that a barrier at 
Brandon Road would be a viable alternative, I am not quite sure 
how long the actual construction would take.
    General Bostick. The Brandon Road study itself was approved 
in April 2015, and that is a 46-month study. This is a long-
term process. In fiscal 2017, we would look at identifying a 
tentative selected plan.
    I think some of the success that has occurred is we have 
reduced the large adult Asian carp population by 68 percent in 
the Dresden Pool, the closest pool to the Great Lakes.
    There are means that we can use to reduce the population, 
but we cannot eliminate it. We are also concerned about the 
juvenile fish because they have a greater opportunity to get 
through the barriers that we have set up. Getting the permanent 
barrier completed is very important to us.
    Ms. Kaptur. I am just so upset about this issue. It is hard 
for those of us from our part of the country to wait. Could I 
ask, when you said the adults have been gotten rid of, 68 
percent, how was that done? Were they fished out? What 
happened?
    General Bostick. I do not have the details on that. I can 
follow up with you on the details. I suspect it was a 
combination of electrical usage, some fished out, and possibly 
some were taken out by other means. I will get the specifics on 
that. I do know it was reduced by 68 percent.
    Ms. Kaptur. I would appreciate that. Thank you, General, 
very much. Do I have time for another question?
    Mr. Simpson. Second round.
    Ms. Kaptur. Second round. OK.
    Mr. Simpson. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Welcome, Madam 
Secretary and General. The decorations on your chest, and may I 
say the other uniforms in the room, are testimony to some 
remarkable service, and it is not only here, but it is abroad 
and it continues, both military and civilian.
    There was no mention of the Northeast in your remarks. I am 
not sure who wrote them. I would like to express the fact that 
I am grateful for the good work of the New York District in 
light of what happened by Hurricane Sandy, some of the things 
that were done.
    My primary focus has been, of course, on the New York-New 
Jersey Harbor deepening, and may I thank Chairman Simpson for 
being front and center. The waters were not particularly rough 
that day, but we had a good time. It is an amazing project. I 
would like to know very briefly, we are about to cross the 
finish line, would you affirm that?
    Ms. Darcy. The project will be completed this summer.
    Mr. Frelinghuysen. Good. Appreciate it. I think it has been 
a substantial investment. I am also interested in continuing 
issues that relate to the Passaic River Mainstem study. 
Specifically, I would like to focus just for a couple of 
minutes--as you know, in my congressional district, Madam 
Secretary, it continues to be subject to dangerous flooding 
from the Peckman River, a tributary of the Passaic River. The 
Passaic River in and of itself has all sorts of issues.
    This study has been on hold for some time. The project was 
authorized in 2000 with over $5 million spent to date, was 
marked as a legacy project for further review in 2015. It has 
been pending before the Corps' leadership for approval to 
proceed with a locally preferred plan, which has the backing of 
the state and the local municipalities. The project is critical 
to those communities.
    May I say I picked up the project from Congressman 
Pascrell, and I am just as keenly interested in making sure we 
proceed. I understand the initial locally preferred plan waiver 
package was submitted to the New York District in March of last 
year. Of course, when you are considering a project like this, 
more information is needed, and there is a lot of back and 
forth.
    I know Colonel Caldwell and his predecessors and the staff 
of the New York District worked with the locals to try to 
provide answers, but I think an expedited timetable at this 
point is a reasonable request. Can you tell me where we stand 
here, since a lot of people in my congressional district want 
to see this study proceed.
    Ms. Darcy. Congressman, the Peckman?
    Mr. Frelinghuysen. Yes.
    Ms. Darcy. Peckman, not Passaic.
    Mr. Frelinghuysen. The Peckman is part of the Passaic.
    Ms. Darcy. I am told that the New York District has some 
carryover funding on hand to begin the study and develop the 
LPP.
    Mr. Frelinghuysen. It will be part of the fiscal year 2017 
work plan?
    Ms. Darcy. It was not included in the 2017 budget because 
they had carryover funds to be able to begin the study.
    Mr. Frelinghuysen. It is my understanding that you are here 
to endorse moving ahead with this locally preferred plan.
    Ms. Darcy. A request from the Corps needs to come to my 
office to be reviewed and approved.
    Mr. Frelinghuysen. Consider it being there.
    Ms. Darcy. OK. A waiver request will be coming.
    Mr. Frelinghuysen. I would like to hear favorably. Thank 
you very much. Thank you, Mr. Chairman.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Lieutenant General Bostick, let me join 
my other colleagues in wishing you the very best in your 
retirement.
    General Bostick. Thank you.
    Ms. Roybal-Allard. Secretary Darcy, as you know, the lack 
of proper operations and maintenance funding for flood control 
infrastructure in the greater Los Angeles area poses a 
significant threat to lives and property in the region.
    Earlier this week, I, along with the rest of the Los 
Angeles delegation, received a letter from Los Angeles County 
that discussed these risks at length. What is the current 
estimated cost for the backlog of deferred maintenance in the 
Los Angeles County drainage area? Is the level of your current 
budget request sufficient to eliminate the backlog, and how 
long would it take to eliminate it?
    Ms. Darcy. What I can tell you, Congresswoman, is that we 
have allotted $11.97 million for the L.A. County Drainage 
District Area Operation and Maintenance in 2016. We also 
allocated $3.1 million for emergency response to construct the 
HESCO barriers that were put on the L.A. River in advance of 
some of the anticipated flooding that was related to El Nino.
    Ms. Roybal-Allard. Do you believe the amounts that you are 
quoting are sufficient to eliminate the backlogs?
    Ms. Darcy. I do not know the backlog number, but I think 
these numbers as well as the additional $17.447 million in the 
President's budget for 2017 would be sufficient for the O&M of 
this project.
    Ms. Roybal-Allard. The Los Angeles River Project was one of 
three projects that received pre-construction engineering and 
design funding in this year's budget request. While I was 
pleased to see this, I did notice the project only received a 
$400,000 funding request in spite of being a $1.3 billion 
project.
    How did the Corps arrive at this budget request? For 
example, did the Corps consider total project costs when 
determining the amount of pre-construction engineering and 
design funding? Also, is the $400,000 amount sufficient to 
complete all that is necessary and doable in the first year of 
pre-construction engineering and design, and if not, how much 
would be needed?
    Ms. Darcy. As you say, there is pre-construction 
engineering and design money for this project in 2016 and 2017. 
This project is not yet authorized. It needs to be authorized 
in order to go to construction. The amounts provided here will 
be efficiently and sufficiently spent in both 2016 and 2017 to 
do the pre-construction engineering and design.
    General Bostick. This is just to initiate the design this 
year, and it would just be the design on the first phase. That 
is why it is a small amount. As Secretary Darcy said, the 
project must be authorized to get construction funds.
    Ms. Roybal-Allard. Do I have time for another question?
    Mr. Simpson. Yes.
    Ms. Roybal-Allard. Along with many other drought-stricken 
communities, my home city of Los Angeles relies on storm water 
capture use and storage as a critical part of its water supply. 
For example, the Los Angeles County Department of Public Works, 
which manages the majority of the Los Angeles County Drainage 
Area System, has prioritized capturing storm water as an 
important local water source.
    During this year's El Nino event, the Corps adjusted 
operations for southern California projects to maximize capture 
and storage of storm water for water supply.
    General Bostick. Yes. We worked very hard throughout 
California and other States. We learned a couple of years ago 
in working with our South Pacific Division and working with 
Whittier Narrows and Prado Dam that we could execute deviations 
fairly quickly from our water control manuals to maintain more 
water, and we have continued to look at each of our districts, 
including the Los Angeles District, to continue the success we 
have had in that.
    What we are trying to do now is make sure we operationalize 
our planning so that the decisions are more routine and very 
quickly processed. I think we are in a pretty good place as far 
as what the Corps can do in terms of El Nino support.
    Ms. Roybal-Allard. Are there any other additional 
authorities or direction that Congress could provide to give 
the Corps more operational flexibility to achieve these goals?
    General Bostick. For the Corps, it is always a balance 
between flood risk management, water supply, and many other 
purposes for the water storage. I do not think it is something 
for which we need additional laws or guidance. It is a question 
of balancing the needs in the local area to the best that we 
can.
    The other area that Secretary Darcy talked about is the 
research on atmospheric rivers, trying to see if there are 
better methods for us working with NOAA, Scripps, and other 
experts on how we identify, early on, the rainfall and then 
work quickly to try to capture it.
    The science is part of the future, and then beyond, the 
balancing of the water control manual needs is the other 
solution we are working.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I would just like to 
add to what Ms. Roybal-Allard said. In Northern California, you 
all are managing some of the dams. I am going to talk about 
Folsom Dam really quickly. You are doing releases right now out 
of Folsom Dam.
    As you know, we have a significant drought in the State of 
California, and there are a lot of people that are questioning 
why the amount of releases that are going on at the present 
time--we have long-term weather forecasts from Scripps that 
claim this El Nino is fizzling out. We all pray for a March 
miracle, but it does not seem that is going to occur.
    Any drop of water that we can retain, we need. Already 
reclamation is allowing--just for the record, Mr. Chairman, 
there has been two to three times more rainfall this year than 
last year, and yet we have pumped less water this year than 
last year. I know that is not in your wheelhouse, but I just 
want to bring that up.
    These dams that the Corps are operating, we need to make 
sure no unnecessary releases take place. We understand your 
flood control is your primary concern, but we need to make sure 
that water is used and saved as much as possible. We will be 
keeping a close look on it.
    Back in my district, Murrieta Creek is a project that is 
underway. Assistant Secretary Darcy and General, I was happy to 
see the fiscal year 2016 work plan for the Corps included 
$200,000 to complete the critical limited re-evaluation report 
for Murrieta Creek flood protection and ecosystem restoration 
in my district.
    As you know, Murrieta Creek is back under construction. We 
intend to keep it moving through completion. We are currently 
working with General Toy and Colonel Gibbs back in our area to 
ensure funding is provided to the Murrieta Creek project to 
complete the LRR and capture the cost reductions recently 
identified in the value engineering exercise conducted by the 
Corps District and the local sponsor.
    They have said they hope to complete the LRR by October. 
Can you help ensure that this schedule is met?
    Ms. Darcy. We will do everything we can to meet that 
schedule, sir.
    Mr. Calvert. Ms. Darcy and General, the last significant 
flood in the project was in 1993, which caused over $21 million 
in damages to Old Town Temecula and over $75 million in 
destroyed helicopters over at Camp Pendleton. Those damages 
could be much greater if the event happend today.
    We have recently jumped back to construction for our 
communities with the Corps on the project, which will provide 
100-year flood protection for the cities of Murrieta and 
Temecula, and obviously downstream into San Diego, and Camp 
Pendleton specifically, whose populations have quadrupled since 
the project's feasibility study.
    There are significant numbers of homeowners, businesses, 
infrastructure which remain vulnerable to flooding, and we need 
to address this. I would like to do so sooner rather than 
later, to continue construction and keep the project on 
schedule.
    To reduce the threat of flooding, we will need fiscal year 
2017 continuing construction funds toward the second reach of 
the phase two project, and initiate phase three design.
    Ms. Darcy and General Bostick, can you commit to me that 
you will work closely with me on the funding to ensure that we 
stay on schedule in fiscal year 2017?
    General Bostick. Absolutely, we will work closely with you, 
and we are working closely with our Los Angeles District.
    Mr. Calvert. Appreciate it. One last comment. As you know, 
on the Santa Ana Mainstem, we are coming to the end after, how 
many years, 30 years, and billions of dollars of expenditure 
where I think we can see light at the end of the tunnel, and I 
hope that we continue to work to get the funding that is 
necessary to finally bring that project to conclusion, and save 
our friends downstream in Orange County.
    I appreciate your concern on that, and I yield back. Thank 
you, Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. General Bostick, 
congratulations on 38 wonderful years of service to the Army 
Corps of Engineers, to our great Nation. I thank you, sir, very 
much.
    General Bostick. Thank you.
    Mr. Fleischmann. Secretary Darcy, it is great to see you 
again. For both of you, I remember vividly our very first 
hearing together, and for the benefit of all, I wanted to talk 
about what was then my number one legislative priority and what 
is still today my number one legislative priority. I do not 
mean to be rhetorical but it is the Chickamauga Lock, the new 
Chickamauga Lock in Chattanooga.
    We have worked together. When I first came to Congress, the 
Inland Waterways Trust Fund was a broken trust fund, with all 
the funds going to the Olmsted Locks. We worked together, 
Republicans, Democrats, senators, congressmen, the Corps, to 
reform that. It is fixed. The Inland Waterways Trust Fund was 
fixed. After we reformed it, it was underfunded, so we worked 
to raise diesel user fees to infuse much needed new capital, 
more revenue into the trust fund.
    Problems persisted, as you all know. Chickamauga was then 
fourth after Olmsted and Lower Monongahela, Kentucky, then it 
was Chickamauga Lock. Fortunately, Congress acted to lock in 
that priority.
    Secretary Darcy, last year, after my pleading for funds, 
our great city of Chattanooga needed some good news, and when 
you called me and said we were going to get $3 million to 
restart construction on the new Chickamauga Lock, that was a 
great day, not only for me, but for our city, which desperately 
needed some good news.
    This year in fiscal 2016, we are going to get close to $30 
million for the new lock. So that everyone knows, the old 
existing lock, and the Corps has done a good job in terms of 
maintenance, but this is an older lock, it is an antiquated 
lock, a New Deal era lock which has about 300 monitoring 
devices on it. It is functional, but it has to be replaced. A 
newer lock was started. It has been about a $185 million 
investment, then it just stopped. It has been mothballed for 
about 5 years.
    I am very excited that we have gotten this process started 
again. Work is going on at the new Chickamauga Lock. It is much 
needed. I am a committed advocate for the inland waterways of 
this Nation. It is a great way to move goods, keep trucks off 
the road. It is efficient and it is much needed in my region 
and really all over the country.
    My concern is that once again the President has not put the 
Chickamauga Lock, new Chick, in the budget. I know you are 
going to talk about a funding formula, benefit-cost analysis a 
little bit, but I want to make my request abundantly clear, 
that we realize that the new Chickamauga Lock needs to be 
funded and we have to realize we are going to have workers on 
the ground, progress being made, and we need to keep this going 
forward.
    With that, Madam Secretary, I would like a response to that 
request.
    Ms. Darcy. Would we request to continue to work with you on 
getting funding for this lock?
    Mr. Fleischmann. Yes.
    Ms. Darcy. We will continue to work with you to try to get 
funding for this lock.
    Mr. Fleischmann. Thank you. With that, I will yield back. 
General, if you want to add that, but it is so critically 
important. We can use all types of formulas and we can look at 
all that. Bottom line, new Chick needs to be built, 
constructed, and funded.
    General Bostick. The only thing I would add, and we have 
talked about it before, is we do manage these priorities on a 
risk-based, performance-based analysis, which is the benefit-
cost ratio.
    The benefit-cost ratio for Chick lock has decreased. We 
talked about doing an economic analysis to see if there were 
changes that might happen. That report is going to be done in 
July of this year. Initial indications are that there could be 
more traffic in that particular area, traffic to the degree we 
had back in the 2000s.
    It had dropped down. There could be a number of reasons for 
that. The state of the lock and the unreliability of the lock 
could be a big factor. We will finish that study in July, and 
we hope the benefit-cost ratio will be in a better place.
    Mr. Fleischmann. Thank you. I yield back.
    Mr. Simpson. Ms. Granger.
    Ms. Granger. Thank you. Thank you both for being here and 
for the work you have done. Secretary Darcy, we would love to 
see you back in Ft. Worth. Thank you for all your help.
    Specifically, General Bostick, you talked about this in 
your opening remarks, but we understand that the funds are not 
there to do some of the things that we have heard today that 
are so important.
    Would you identify what you consider the most critical 
unaddressed water resources requirements that are there but not 
addressed because of funds, and what priorities have you not 
been able to address due to the funding constraints?
    If you said this is what I see as I am leaving all these 
years of work, what are we not addressing?
    General Bostick. Thank you for that question. I think 
overall I would say we need to address this aging 
infrastructure, and we need to take it on as a Nation. Whether 
it is a D+, D-, or D, it is still not a good grade. Much of the 
infrastructure we have, as Representative Fleischmann and 
others have said, are New Deal era projects, when FDR decided 
they needed to put America back to work again. Those projects 
were once the envy of the world. People from all over the world 
looked at these projects and were amazed at what America did.
    I was just in China. They spoke about the American progress 
and wanted to know more. In China, they have a strategy, and 
you can talk about their economics and how they are funding 
things, but they have a plan, and their plan is to spend $600 
billion on 172 water projects and finish in 7 years.
    I think, one, we need a strategy, and we are working on a 
capital investment strategy. We have a levee safety strategy. 
We have a dam safety strategy. Part of the strategy must be 
based on time and it has to be based on efficient funding. If 
you do not have time and efficient funding, then that is not 
really a strategy.
    Where we have been successful is in disasters, for example 
in the area of hurricane storm damage risk reduction after 
Katrina, after Sandy. We finished those projects in 7 years. We 
finish things that normally take many years in 7 years.
    I would say look at our aging infrastructure, set 
priorities and then fund those priorities. Right now, we have a 
collection of projects, many, many projects, that we try to 
sprinkle dollars all across, and not until a crisis do we 
actually execute as a program.
    I think part of that process is probably going to continue, 
but if we could say, ``here are the priorities that this Nation 
wants to finish'' and then fund those, it might be something 
like a BRAC--base realignment and closure--for infrastructure, 
but focused on a small amount of projects that we say we are 
going to get done. Those are the projects that involve life 
safety, navigation, and help our economy.
    Ms. Granger. Thank you very much. Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Welcome, Madam 
Secretary and General Bostick. I came in late so I just picked 
up on the information that you are retiring in May, so I just 
want to congratulate you on your long years of service.
    General Bostick. Thank you.
    Mr. Honda. Please understand we all understand the kind of 
work that the Corps does and how it goes about doing its work.
    I just heard two words, ``time'' and ``efficient funding.'' 
I think that is what we have to think about as appropriators, 
that we have to be able to put out the funding in anticipation 
of the future.
    The things that we want, things that we desire for our 
public safety and for our future, we cannot expect that without 
appropriate funding and investments for the kinds of things 
that we dream about for our country and our communities. I just 
wanted to make that comment.
    I would like to start with the Upper Berryessa Creek 
project in my home district. As you know, this project has been 
a high priority for me, and I have been following very closely. 
This is one of the two projects that must be completed in order 
for the BART System, the Bay Area Rapid Transit System, the 
station to begin operations on time in 2017.
    I understand the Corps has been working with the State 
Regional Water Quality Control Board and local partners on the 
final permitting and issuing a project partnership agreement 
for the project, but this has not always come smoothly.
    Can you share with us about the expected time for the 
issuance of the PPA for this particular project?
    General Bostick. I do not have the details on that, 
Congressman, but I can follow up later today.
    Mr. Honda. It is kind of critical for the opening and the 
timely opening of the BART station. I know the Corps had to 
streamline and has been very flexible in looking at the 
permitting time and everything else. It will be critical.
    Ms. Darcy. Congressman, I think we are on track with the 
local sponsor to address the issues with the certification and 
keep the PPA on track. This project is an important one. It is 
also one that is funded to completion in the budget.
    Mr. Honda. Our work with the Regional Water Quality Control 
Board is being addressed and it is being resolved?
    Ms. Darcy. Yes, it is.
    Mr. Honda. That is great. Also, about the South San 
Francisco Bay shorelines, that study, and I want to also again 
thank the Corps for your hard work in keeping the shoreline 
study on schedule and submitting the chiefs' report to Congress 
on time. Completing that study was a vital step towards 
managing flood risk and restoring of the ecosystems along the 
Bay line that borders the cities of Palo Alto, Monte Vista, 
Santa Clara, San Jose, and up the Bay towards Oakland.
    I will be working with my colleagues to see that the 
project is authorized in the next WRDA bill. I wanted to 
understand that the Corps can initiate pre-construction design 
while it awaits authorization. Can you share a little bit about 
that, please?
    Ms. Darcy. Yes. I think this is one of three projects that 
received PED funding in the 2016 work plan.
    Mr. Honda. So?
    Ms. Darcy. In anticipation of it being authorized soon.
    Mr. Honda. Great. I guess I can assume our 2016 funding 
amount will be sufficient resources for the pre-construction 
activities there.
    Ms. Darcy. That is what is provided in the 2016 work plan, 
sir.
    Mr. Honda. Thank you.
    General Bostick. The funding is for the completion of the 
first reach of that project.
    Mr. Honda. Let me just take a moment and respond to one of 
your comments, General Bostick. You said atmospheric streams, 
atmospheric rivers, as it relates to anticipating planning, 
rainfall and water conservation, and management.
    Is there a way where your agency and other agencies can get 
together and write a short paper on how you go about tracking 
and identifying atmospheric rivers and streams, and the 
different agencies that need to work together to be able to 
achieve this information and knowledge so that at the end, the 
end users, the communities, you have enough information to be 
able to anticipate what you need to do with the communities and 
with the Corps.
    I think a lot of times we isolate different activities as 
if they were entities unto their own and do not incorporate the 
different works so that people, policymakers, will understand 
the interaction of all these things so that we will be able to 
say we should be spending money in these areas, the research 
and supporting NOAA, supporting NASA, supporting other 
entities, so that this information will be at hand and 
available to be able to work on the issues of water, water 
storage, management, and research.
    Is this something where different agencies could get 
together so we have some instructional paper before us so we 
can make good fiscal decisions while we sit here?
    General Bostick. We can absolutely provide that. The 
research that we are doing is an interagency effort, so we can 
summarize what that research is and provide it to you.
    The White House does have an interagency task force that is 
looking at drought. I visited California and met with their 
drought experts. It was refreshing to me to hear that they felt 
like they were working with all the right folks in Washington 
and obtaining the support they needed.
    There is still a lot of science that needs to be done on 
atmospheric rivers. It certainly is not going to be a panacea, 
but I can provide you the information and demonstrate that we 
are certainly working together.
    Mr. Honda. The important part is that it is very plain and 
very clear who is working together, how much money it costs, 
the kind of funding that would be necessary for the research 
and the work that is required in order for us to have that kind 
of a conclusion. I appreciate that.
    Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Chairman. Thank you, Secretary and 
Lieutenant General. Appreciate your service to our country and 
hope you enjoy your retirement. Thanks for everything you have 
done.
    My question, I would like to echo a little bit of what my 
colleague, Mr. Calvert, said earlier about water in California 
and the role that the Corps can play in hopefully conserving as 
much water as we can to help the communities that desperately 
need it.
    In the community I represent, we have seen unemployment 
numbers in the last few years actually get up to the point of 
hitting 50 percent. If you saw the San Francisco Chronicle, 
over the last few months they had a story of folks living in 
shanty towns, something you would see in a Third World country 
is happening right here in the United States of America. A lot 
of that has to do with the resources that are being wasted 
currently.
    With these storms that we have gotten over the last few 
months, we see water continuing to flow into the ocean, and I 
know again it is not specifically due to the way the agency or 
the Corps is managing, but you guys do play a role in the 
overall usage of water, and I hope that you take that into 
account when you are making decisions.
    My question is although throughout the year the El Nino 
weather pattern has brought some much needed rain and snow, 
drought conditions persist across much of the West and the 
Southwest, with California seeing the most extreme conditions. 
What kind of impacts on the Corps' facilities or operations are 
you seeing as a result of this drought, and will funding 
requirements of fiscal year 2016 and 2017 be affected? And 
third, how is the Corps handling requests from local interests 
to modify the operating procedures of projects with water 
storage?
    General Bostick. First, I am also a California resident, so 
I have family, relatives and a lot of friends that are out 
there I visit regularly, so I understand some of what you are 
saying in terms of the impact, and we have seen that in other 
parts of the country as well.
    My specific purpose in my last visit was to take a look at 
drought conditions and what we have done. One of the things we 
did was grant an emergency permit to the California Department 
of Water Resources, where they installed an emergency salinity 
barrier at the Sacramento and San Joaquin Rivers.
    That was extremely helpful, I think, in keeping freshwater 
available.
    Mr. Valadao. That has been installed and in place?
    General Bostick. Right.
    Mr. Valadao. This year, and I forget the exact numbers, but 
I saw a graph yesterday, I think it is triple the amount of 
water has flown through the delta, yet we've actually pumped 
less water this year than last. Triple the amount of water 
moved through the delta and we have been able to capture less 
than we did last year.
    The graph is a pretty dramatic example of nothing seems to 
change and it has not helped. I do not know if this project was 
supposed to help or could have helped, but right now, it does 
not look good.
    General Bostick. Part of what it was doing was to keep the 
saltwater out, and that was the initiative. They did not keep 
it up long. They kept it up long enough to protect the salinity 
content in the water.
    The other thing we did very quickly was the work on 
Whittier Narrows and the Prado Dam, and we were able to capture 
a significant amount of water in both of those events, which 
led to a significant amount of supply.
    Beyond that, we are working very closely with the drought 
experts in California and here in the United States in an 
interagency way. This is a very, very difficult challenge, as 
you know. We are doing the best that we can working together.
    Ms. Darcy. I would just add that we are also looking at our 
operations, ensuring that we have drought contingency plans for 
the operations of our projects, not only in California, but 
around the country.
    Mr. Valadao. Under Section 404 of the Clean Water Act, the 
U.S. Army Corps of Engineers can issue general permits that 
authorize activities that have minimal, individual, and 
cumulative adverse environmental effects.
    There are currently 50 different types of these nationwide 
permits that enable a wide variety of activities, such as 
residential and industrial developments, utility lines, road 
crossings, mining activities, wetland, stream restoration 
activities, among other things.
    According to the recent Corps and EPA report, there were 
32,864 nationwide permits issued in 2014. That means nationwide 
permits represent nearly two-thirds of all Clean Water Act 
permits issued by the Corps.
    How important is the nationwide permit program to the 
smooth functioning of the Corps' regulatory program, and do 
individual permits take more time for the Corps to process or 
require any additional steps?
    Ms. Darcy. Congressman, I would say that the nationwide 
permit program is invaluable to the Corps of Engineers. As you 
say, 33,000 permits last year. Because those permits are for 
smaller projects, they do take less time than individual 
permits. We are in the process to re-propose our nationwide 
permit program by 2017 because it is only a 5-year program.
    Mr. Valadao. Given the importance of the nationwide 
program, what are the changes you are considering to make it 
easier for people to qualify for these permits and avoid costly 
individual permits?
    Ms. Darcy. We are currently looking at the next round of 
these, and we have public comment periods ongoing and we are 
receiving comments as to either new permits or modifications to 
the existing requirements of nationwide permits, which would be 
more valuable for different kinds of operations that, 
currently, we may not have a nationwide permit for.
    Mr. Valadao. Next, the National Oceanic and Atmospheric 
Administration says on the average about 30 to 50 percent 
annual precipitation on the West Coast occurs in just a few 
atmospheric river events. Many people believe that better 
understanding and forecasting can lead to improved operations 
of our water infrastructure for the purposes of both flood risk 
reduction and water supply.
    For the past years, Congress has provided the Corps with 
additional funding to cooperate with other Federal, State, and 
local entities on research into atmospheric rivers.
    Could you please describe for us what the Corps' role is in 
the ongoing work?
    General Bostick. In 2015, we received about $2 million to 
look at atmospheric rivers, and we have worked with NOAA, 
Scripps, and other entities, within the interagency family, 
with academia, and with local experts to ensure that we are 
moving in the right direction.
    It is really too early to say what these studies are going 
to produce, as I said before. We have all the right people and 
the funding is being put to good use.
    Mr. Valadao. Thank you, and I yield back.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you very much, Mr. Chairman. Secretary 
and General, the first thing I would like to do because I think 
too often we do not thank people who do a very good job in 
public service.
    Besides yourself and others in the Corps, in the Chicago 
District Office that encompasses our portion of the State of 
Indiana, we just want to draw people's attention to the good 
work that the District Office does in Chicago under its 
leadership of Colonel Christopher Drew. Also, we have the 
deputy project manager, Roy Deda, who will be retiring later 
this year after--he would hate me for saying this--four decades 
of public service. Again, I think he just epitomizes the 
dedication of the people. We have had some very intractable, 
tough problems.
    As I describe my district, we do everything but 
desalinization. The Corps and people like Roy, the Colonel and 
his past predecessors, have done a very good job, and I am very 
grateful for that.
    What I would like to do is turn to P3--the Public-Private 
Partnership Act. The Congress included in its fiscal year 2016 
act specific direction to develop a policy on how proposals for 
the Public-Private Partnership Act will be considered and how 
they will be incorporated into the budget.
    Secretary, what is the status of that policy?
    Ms. Darcy. Congressman, with our budget, we submitted a 
report on public-private partnerships policy, and we are 
currently looking at many different possible projects to be 
able to come under the umbrella of public-private partnerships. 
One is in Illinois on the Illinois Waterway. There are others 
throughout the country.
    As you know, in the 2016 work plan we proposed funding for 
the Fargo-Moorhead project for $5 million as an example of a 
public-private partnership. We continue to look for other 
opportunities within the program. I do not know if the Chief 
wants to add anything.
    Mr. Visclosky. I do understand you had the Fargo-Moorhead 
project in the budget. I am not sure there is a funding line 
attached to it. I know it was in the report.
    I am more concerned about policy, and certainly there was a 
congressional directive to pick one. The concern I have is we 
have affluent communities in the United States who have 
problems, and when you come to P3 partnerships, for example, 
they potentially have the resources to move up and get coins, 
if you would, and consideration.
    I have some communities in the First Congressional District 
that have huge needs and are poor, but would want to do 
something to help themselves. My sense is as far as Federal 
policy is we want to help people across a spectrum. There ought 
to be some delineated policy that people know in advance if we 
are going to pursue a public-private partnership, here is the 
criteria we are going to have to meet.
    My sense is there is not a clearly delineated policy. I 
know it is not a simple matter. Every levee the Corps builds is 
different, but there is a policy as to what generally these 
levees have to do and what their composition has to be.
    I am just wondering where we are going during this fiscal 
year on that policy. I am concerned.
    Ms. Darcy. Pardon?
    Mr. Visclosky. I am concerned.
    General Bostick. If I could just say a little bit here. You 
would always like to have the policy before you start moving 
forward in any type of P3 work. This area is so new for the 
Corps and the Nation that we are going to have to develop the 
policy almost as we are moving along and learning.
    We have a number of constraints that keep us from doing 
public-private partnerships, but we are trying to work with the 
locals that have aggressively moved forward as in the case of 
Fargo-Moorhead. We are trying to take that and learn from it, 
and then work with the Administration and the Congress to 
decide what really should be the way forward.
    For example, we have to monetize projects. If we were to 
monetize levee work, for example, and we were able to garnish 
those funds, however we cannot keep them at this point. We are 
not able to ring fence those funds. We could not put out a 
policy that says this is how we are going to do it. A lot of 
folks do not even know if this is going to work.
    I think we are kind of putting our foot in the water with 
Fargo-Moorhead. We are going to learn a lot from this. We have 
given some broad guidelines on what to do. I think we will 
learn a lot from this and we will be able to develop a more 
clear policy in the way ahead.
    Mr. Visclosky. I assume the Corps is communicating with 
other agencies in the Federal Government who may have some 
experience with these types of projects, understanding again 
you are in a very unique situation and each project is 
different.
    Again, I do think there ought to be some delineation, and I 
do have great reservations about these projects just because 
there are communities that have needs and, in many cases, the 
greatest needs in this country, and they do not have those 
private resources. And I do not want as we go down this road as 
you have a policy to have them left behind because we have not 
clearly delineated there are ways you can still meet the 
criteria. I would encourage you in that regard.
    General Bostick. We are working closely with other 
organizations. I think one great example is Department of 
Transportation. You can easily see how they monetize a highway 
and collect taxes and then fund the project.
    We are having a bit more of a challenge on the inland 
waterways. We actually do better with hydropower, where you can 
see there is a monetization of the electricity. I understand 
your point, Congressman. We have a team that does nothing but 
public-private partnership work each day. They are aggressively 
moving out to try to better understand this so we can get 
guidance out to our team.
    Ms. Darcy. In developing any policy, I think your point 
about the ability to pay, for our local sponsors, is something 
that we need to consider when we develop this policy. They may 
not have the means and should not be disadvantaged in the P3.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Simpson. Following up a little bit on Mr. Visclosky's 
comments or questions, one of the big challenges we face, and I 
think both of you mentioned it in your opening statements, is 
the backlog maintenance that we have in this country, and not 
just on waterways and harbors.
    If you look at the water and sewer programs within the 
United States that the EPA funds through STAG grants, we are at 
about a $700 billion backlog. If you look at the backlog in 
highways and other things, the backlog maintenance is a real 
problem.
    I think you mentioned it would be about 20 years at the 
rate we are going to address the backlog maintenance that 
exists today in the Army Corps.
    General Bostick. This is for the construction projects.
    Mr. Simpson. Which means we will never address the backlog 
because it would have gone over the 20 years more than we are 
paying it down probably.
    One of the things the committee has struggled with is how 
do we address that? How do we get to where we are actually 
reducing the backlog in a variety of different areas? We have 
held hearings for the P3 program on different ways of 
financing. The public-private partnerships has a real 
possibility of being beneficial.
    The question is, as you do your projects and you list your 
projects on a cost-benefit analysis, how do P3s fit in with 
that cost-benefit analysis? Are there special challenges that 
they have that put them at a disadvantage in fitting in that 
project or advantage them in fitting in those projects or 
should there be a separate list of projects that you do and P3 
projects that you do?
    We certainly want to encourage local communities and 
private partnerships to be involved in this. I think that is a 
healthy outcome. The private sector has to know that the 
government is committed to it as well before they are going to 
commit funds.
    Are there special challenges to this?
    General Bostick. There are clearly special challenges that 
exist. In fact, many of these public-private partnerships 
probably would not fit into our business rules. In order to 
understand and create policy in a direction and even a desire 
to pursue public-private partnerships, we almost have to handle 
them offline and we have to say there is great benefit in doing 
these, even though they might not fit in the current business 
rules that we have. The ability to learn from them would be 
significant.
    We could come back to the Congress and the Administration 
and see if this is something we want to do. I think there are 
many investors out there that believe they can help, but we 
have not set the right parameters which would allow them to do 
that.
    One area where the Congress has helped in reducing the 
backlog is de-authorization. We recently turned in about $14 
billion of projects recommended for de-authorization, as we 
were directed to do. That is going to take away some of the 
backlog.
    To address the other ones, it is like I said earlier when 
Representative Granger asked the question, I think part of what 
we need to do is prioritize some of that backlog and push it 
all the way to completion. It may be a small handful of 
projects, but prioritize those, fund them, and get them done in 
a short period of time, and then work on the next group while 
we continue with the business rules for the rest of the 
projects.
    Ms. Darcy. I think there are some challenges with P3, but I 
think it is one that we have to look to as far as your question 
about whether we should look at P3 projects through a different 
lens than we do when we prioritize the others. Maybe we should. 
Maybe the benefit that is not traditionally captured from that 
project might be enhanced by having either a P3 or some other 
alternative financing mechanism that we do not usually evaluate 
for.
    I think being open to the opportunities that private 
capital can bring into our projects is something that we should 
embrace and, in my view, have a wider lens on what qualifies.
    Mr. Simpson. Is there a reason why in following the 
congressional directive to select a P3 this year, you selected 
Fargo-Moorhead but did not request anything in the budget 
request for it?
    Ms. Darcy. That is true. I think as General Bostick pointed 
out, this is our first toe in the water on P3, and we want to 
look forward to what it is we can learn from this one. And 
hopefully, we will reach success in the initial stages of the 
$5 million that we put in 2016 and we will be able to see that 
going forward, and perhaps in a future budgets, we will be able 
to budget for it.
    Mr. Simpson. The fiscal year 2017 budget request estimates 
total annual receipts for the Harbor Maintenance Trust Fund at 
$1.662 billion, down significantly from the estimated fiscal 
year 2016 budget of $1.887 billion.
    Could you please tell us which agency is responsible for 
developing the estimates of the Harbor Maintenance Trust Fund 
receipts? How are the estimates developed? What information is 
used? And could you please discuss why the estimates are so 
much lower this year than last year, and what factors are the 
primary drivers of that decrease? Has traffic at our ports 
dropped or are there specific circumstances at individual ports 
that have influenced the reduction?
    I think when they did water, they anticipated a slow and 
steady increase in the Harbor Maintenance Trust Fund and, of 
course, all of the advocates for the Harbor Maintenance Trust 
Fund are apoplectic now, it has gone down this year, the 
estimate.
    Ms. Darcy. The estimates are done by Treasury, and they are 
based on projections as well as the past year's receipts as 
well as projections for the coming year. As you say, the 
projections for this year are down, which brings the estimate, 
I think, back down to $1.5 billion or something like that.
    Again, Treasury does the estimates, and that is what we 
base our decisions on. I think part of the reason for the 
decrease is what is coming in and probably the price of oil.
    I do not know if you want to add anything, General.
    Mr. Simpson. You do not really know what the factors are, 
just decrease in traffic through the ports?
    Ms. Darcy. Yes, and the reasons for that are partly due to 
traffic. The Harbor Maintenance Trust Fund is an ad valorem 
tax. It is based on the value of what is coming in and this has 
decreased, and part of the reason is the price of oil.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. I apologize, I am 
splitting time between two hearings, but thank you all. Good to 
see you again, Secretary Darcy. I remember fondly our first 
meeting along the Platte River in an airboat. Thanks for 
bringing that project to successful completion.
    I wanted to ask you about the Missouri River Fish and 
Wildlife Recovery Program. You have a significantly reduced 
budget request. What does that mean? You are nearing completion 
of the program or is there some shift in priorities?
    Ms. Darcy. This year the number is reduced. It is not that 
we have reached the end of the program. We had always put 
Intake Dam in Yellowstone, Montana, in that budget line item. I 
think there was usually $20 million, and currently we are not 
able to go forward with that project, so that is one of the 
reasons that line item is decreased.
    Mr. Fortenberry. You mean just in terms of capacity or 
delivery of the----
    Ms. Darcy. We are unable to go forward with that project 
because it is currently in litigation.
    Mr. Fortenberry. I see. OK. I want to follow up on what the 
chairman was talking about as well. In the testimony you 
provide alternative financing for public and private 
partnerships. Would you unpack that a little further?
    We are actually trying to deal with this in a situation 
with the VA. There has been some constraints that come out of 
OMB in terms of the way in which they score private 
contributions to certain public outcomes, which then become 
ironically cost prohibitive. It is just a strange and unusual 
thing. Have you encountered this?
    Ms. Darcy. Scoring is one of the challenges I should have 
mentioned, Mr. Chairman, when you were talking about it.
    Mr. Fortenberry. Is that your nice way of saying you have 
already talked about this?
    Ms. Darcy. No. I should have raised it when you asked about 
challenges. The scoring part of it is a challenge because if 
the scoring shows a different----
    Mr. Fortenberry. OK. How do we fix this? This is really 
silly. Somebody wants to give you money to help with a project 
that has some nice benefit-cost ratio, is a public good, and we 
cannot score it because score is a cost? I do not understand.
    Ms. Darcy. Sometimes I do not either. When Congressman 
Visclosky talked about the policy that we need to develop for 
P3s and alternative financing, that is something that I think 
we need to address because we have to recognize the value that 
is brought by the private capital market.
    Mr. Fortenberry. Who is working on this? Are you working on 
it?
    Ms. Darcy. We are working on it within the administration.
    Mr. Fortenberry. But whom? Again, we have the same problem 
with the VA. Maybe we ought to put an interagency process 
together quickly to get with OMB and fix this or tell us what 
empowering language you need to fix this. This is really an 
unnecessary holdup of some innovation.
    General Bostick. I think the challenge that always comes 
for the country and the administration, and probably for the 
Congress as well, is that you are committing the United States 
to a long-term mortgage. The more you do that, the more of 
these long-term----
    Mr. Fortenberry. You can figure out a formula on that, on 
leasebacks and all that, that have some current value, that has 
a budget. You can constrain it for a certain period of time 
unlike traditional financing over 30 years. I get that.
    In terms of just pure gift, that people want to help fund 
something because it obviously is going to have some benefit in 
proximity to them, are you getting entangled up with the 
inability to accept that?
    General Bostick. For example, for Miami Harbor, it is one 
of the five ports that we wanted to dredge in preparation for 
the Panama Canal expansion. It was part of the ``we-cannot-
wait'' strategy, and Miami said we cannot wait either, so they 
gave us all the money up front in order to dredge that, and it 
was completed.
    Mr. Fortenberry. That is a public agency. That is a public 
entity. I think that is a little different. Anyway, the broader 
point being we have to figure out some mechanism by which this 
is made seamless, whereby the scoring, the commitment time 
perhaps is narrowed, the value, the present value of that 
expense, if you will, of that commitment to the government is 
formulated in a consistent manner based upon some hard 
infrastructure.
    General Bostick. There are specific areas where I have seen 
success in my career, the Residential Communities Initiative.
    Mr. Fortenberry. This is already being done.
    General Bostick. Public-private partnerships. The other 
ongoing area is the energy savings performance contracts. 
Again, that was written in law. We were hugely successful. It 
is easy to monetize. It is electricity. Whether it is 
hydropower or whether it is energy savings, solar panels, we 
are doing that on our installations, and it is public-private 
partnerships committed for 30 or 40 years.
    Mr. Fortenberry. These valuation methods have parallels to 
the projects that you are referencing in terms of alternative 
financing?
    General Bostick. They do, except in some cases it is hard 
to monetize investment in a levee or investment in a lock. We 
have to figure out how to monetize these projects. We are close 
on Fargo-Moorhead. I think they have used the tax base in order 
to monetize the benefits to building better levees, and that is 
a way to do it. Generally, in the inland waterways and the kind 
of structure that we normally deal with, it is harder to 
monetize.
    Mr. Fortenberry. I am bumping up against this problem, and 
I am not a public finance expert to be able to help determine 
formulas that would appropriately address the obligation that 
is being committed to by the U.S. Government in terms of a 
present value cost.
    But to forego these options, we are not calculating the 
opportunity lost cost, if you will, which is seriously large.
    General Bostick. We believe we ought to look at it. There 
is no question we are aggressively moving.
    Mr. Fortenberry. All right. Thank you, Mr. Chairman.
    Mr. Simpson. I think the problem that Mr. Fortenberry talks 
about is because of economists, and the reason we have 
economists is to make astrology look respectable.
    Mr. Quigley. Welcome to the committee.
    Mr. Quigley. Thank you so much for letting me sit in. I 
appreciate that. I want to join Mr. Visclosky in recognizing 
the Chicago office for their good work. Obviously, my 
colleagues in the Chicagoland area, including Senator Durbin 
and I, are deeply disappointed, a mild expression, in 
discussion with the McCook Reservoir and the funding there.
    The history in the Chicagoland area of very damaging 
flooding was addressed with Deep Tunnel, which is only minor 
compared to how important McCook-Thornton Reservoirs are. If we 
want to compare this to projects across the country, I do not 
know how many states have 5 million people, but there are 5 
million people impacted by this not getting done.
    This was supported by the administration after an 
extraordinary number of years. One of the Corps' most 
competitive flood protection projects, and there is no funding 
for it to continue construction on the McCook Reservoir and the 
Chicagoland under flow plan in 2017.
    I have been doing this 7 years, and I have never addressed 
anyone in committee like this. It is inconceivable how such a 
top-tier, fully authorized flood protection project, 65 percent 
complete, and an active Federal construction, a 3-to-1 benefit-
cost ratio, it is not just a Democratic project in Chicago, 
this is bipartisan support and people who are getting flooded 
really do not care at that point what party they are.
    It benefits Chicago and 36 suburbs; 1.5 million structures 
and 5 million people dropped from the budget after years.
    We are told there is some extraordinary misunderstanding 
that this is under the mistaken belief that stage two is 
related to water pollution control. It has been documented by 
your agency, nationally and locally, that this is about flood 
protection. It is fully authorized and documented in the Corps' 
system as such. Again, recommended by the Corps for flood 
protection.
    What the heck? Where do we go from here?
    Ms. Darcy. Congressman, phase one of this project, as you 
know, has been funded to completion, and in doing so, that will 
meet the requirements of the consent decree that the city has 
to meet by December 2017.
    The second phase of the project, you are correct, is not 
included in the 2017 budget. The purpose of that second phase 
of the project is being looked at as possibly being 
environmental infrastructure, but I will commit to you today 
that we will relook at this budget request.
    Mr. Quigley. Is it possible that this could be included in 
the work plan for the continuation of this construction? I know 
that takes place in the second phase this year.
    Ms. Darcy. A 2017 work plan will depend on what the outcome 
is of this committee's appropriations bill. If there is a 2017 
work plan----
    Mr. Quigley. Are there any other means that we can look at 
this again and still not stop this project? There is not a lot 
of other choices, unfortunately, and it is not anybody in this 
room's fault that Illinois has not passed a budget, but we 
brought this to the dance and we are not taking it home. There 
is virtually no likelihood that there is going to be any local 
opportunities to pick up the final costs of this.
    I have been to these projects. They are massive holes in 
the ground, but we have been lucky so far. We have not had our 
annual 100-year flood in the Chicagoland area.
    There is a race to get this done. Looking at this again, 
what is the time frame in terms of options?
    Ms. Darcy. I will commit to you that I will look at a time 
frame that can deliver some options for us to consider.
    Mr. Quigley. We would appreciate it if you would let us 
know, as well as the other members from the region, as well as 
the senators.
    Ms. Darcy. I will.
    Mr. Quigley. Again, Mr. Chairman, I want to thank the full 
committee for giving me this opportunity.
    Mr. Simpson. Thank you. We are going to have votes here 
relatively quickly. I think they are doing the Motion to 
Recommit right now. We will have another round of questions if 
everybody could keep it short. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I would like to ask 
Ms. Darcy and the General about the status of the Cleveland 
dredging situation, both short and long term.
    The Ohio EPA has done core sediment samples now from the 
Cleveland ship channel showing the average bulk phosphorous 
content is 1.54 times higher in the Cleveland ship channel, 
sediment in Toledo, and also the state EPA has dredge material 
that shows the PCB levels in fish in Lake Erie could increase 
by 10 to 20 percent because of the contaminant levels of the 
sediment that they have been drawing up.
    My question is what is the status of port dredging and the 
dredge disposal in that region, please.
    Ms. Darcy. In Cleveland Harbor, we will be dredging as much 
as we can under the Federal standard. As you may be aware, the 
Federal standard allows for open lake disposal of the sediment 
for the last mile and a half of the Cuyahoga River in 
Cleveland. However, the State EPA has not, to my knowledge, to 
date issued a water quality certification for us to be able to 
do that.
    Therefore, the cost of putting those dredged spoils into a 
CDF, because that is not the Federal standard, would need to be 
paid for by the local sponsor.
    Ms. Kaptur. Are there any instances in the country where 
the Corps has not disposed of dredge material in open water, 
either fresh or saltwater, due to environmental considerations?
    Ms. Darcy. That we have not put it in because of 
environment?
    Ms. Kaptur. Right.
    General Bostick. We will have to follow up on that. I 
really do not know.
    Ms. Kaptur. All right. Thank you very much. I think this 
story will continue. We provided over $1.3 billion in 
additional dollars in last year's budget for the Corps. Do you 
have any way of assisting local communities that are stretched 
for local funds? Do you have any examples of that in your prior 
work?
    Ms. Darcy. For dredging?
    Ms. Kaptur. Yes, for dredge disposal.
    Ms. Darcy. Using Federal dollars to help the local 
community meet their obligations?
    Ms. Kaptur. Yes.
    Ms. Darcy. I do not believe so, but we can check to see if 
we did. I do not believe that we have.
    Ms. Kaptur. All right. Do you have any idea on the backlog 
for authorized Corps' projects in the Great Lakes? And how are 
you interpreting the language in the authorization bill 
recently that not less than 10 percent of all navigation funds 
should be directed to projects located within the Great Lakes 
Navigation System? Are you meeting the 10 percent requirement?
    Ms. Darcy. In the Harbor Maintenance Fund? Yes, we are.
    General Bostick. Yes.
    Ms. Kaptur. Very good. Thank you. I know Congresswoman 
Roybal-Allard wishes to ask questions, so I will restrain at 
this point.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. In the interest 
of time, Secretary Darcy, I will go through this, and then I 
have some follow-up questions.
    The budget materials make brief mention of a forthcoming 
proposal to use Inland Waterway Trust Fund dollars to cover a 
portion of operational and maintenance costs. Can you provide 
any additional details for us today?
    Ms. Darcy. Congressman, as you mentioned, that proposal is 
forthcoming. You are correct, there is a portion of what is 
being proposed that would be set aside or come out of a vessel 
fee that would be proposed. This, in my view, is a starting 
point of a conversation.
    This committee, the Congress and the American people 
increased the tax to help with the balance in the trust fund. I 
think we all know the needs are still great, and we would like 
to work with this committee in order to come up with a vessel 
fee or proposal that can help to meet that increased need. 
This, in my view, is a starting point.
    Mr. Fleischmann. What cost share is the administration 
proposing?
    Ms. Darcy. In the 50-50 cost share? No cost share change. I 
am hoping we are going to propose to add some additional 
waterways to those that are currently taxed. I think currently 
there are 27 waterways, and we might increase that to the 40 in 
the Inland Waterways System.
    Mr. Fleischmann. Madam Secretary, would this proposal cover 
all inland navigation operation and maintenance or just O&M on 
those projects for which capital improvements are also cost-
shared with the trust fund?
    Ms. Darcy. The details, are forthcoming. I expect it to be 
on the entire fund, but we can provide you those details and 
hopefully work with you on trying to enact this proposal this 
year.
    Mr. Fleischmann. When can we expect to see the final 
proposal?
    Ms. Darcy. Within weeks.
    Mr. Fleischmann. We look forward to getting that proposal. 
And with that, Mr. Chairman, I yield back.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Secretary Darcy, I would like to go back 
to the point on the backlog and follow up on Chairman Simpson's 
question.
    But quite frankly, I was disappointed that you do not know 
what the backlog and costs are for operations and maintenance 
for flood control infrastructure in the Los Angeles region, 
given that it is one of the most densely populated areas and 
could put a significant number of lives and property at serious 
risk.
    Is there any data available to tell us what percentage of 
L.A. County Drainage Area assets are graded at an acceptable 
level?
    Ms. Darcy. I can answer your first question now.
    Ms. Roybal-Allard. OK. Good.
    Ms. Darcy. Fifty-five million is the backlog number. I am 
sorry, the second part of your question was?
    Ms. Roybal-Allard. It had to do with the costs, if you had 
any estimate on what the costs would be to complete the 
backlog. We can wait on that.
    Let me go back to my other question, and that was if there 
was data available to tell us what percent of the L.A. County 
Drainage Area assets are graded at an acceptable level.
    Ms. Darcy. That is a number that we do not have. You want 
to know if they are acceptable for flood control?
    Ms. Roybal-Allard. Yes. One of the reasons for asking this 
question is it was my understanding or I have been told that 
there is not even a mechanism for collecting that kind of data. 
Is that true or not true? If my information is correct, I would 
urge the Corps to conduct a single comprehensive assessment to 
measure the acceptable levels of the Los Angeles County 
Drainage Area System, which I would think would be an important 
step to address the funding needs of the Los Angeles County 
Drainage Area.
    Do you happen to know if there is such a mechanism for 
collecting that data?
    Ms. Darcy. I am looking to my experts. Yes. We have 
operational condition assessments that are done. I assume we 
have one for L.A., for everything.
    Ms. Roybal-Allard. You then would be able to give me that 
information?
    Ms. Darcy. Yes.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. There is a project 
called Upper Guadalupe Flood Protection Project, which is just 
adjacent to my district. Can you explain to me what the reason 
is for the delay in that project is? It has been authorized 
since 1999, I guess. There does not seem to be much progress in 
that section.
    General Bostick. We will have to follow up with you on 
that. We have a number of projects that are authorized, but 
they are not funded. Generally, that is because of the benefit-
cost ratio affecting how it competes. We will follow up 
specifically on that project.
    Mr. Honda. In that light, I guess I need to know what role 
does the water district play and the local cities and counties 
in that calculation, too?
    General Bostick. We will provide it to you.
    Mr. Honda. Thank you.
    Ms. Darcy. Congressman, could I just add that we will 
follow up on that part, but I am told that for that project, 
there is no funding needed for this fiscal year.
    Mr. Honda. No funding needed?
    Ms. Darcy. Needed for this fiscal year. I do not know the 
answer to the second part of your question, so we will follow 
up.
    Mr. Honda. It is not needed because there are no funds or 
it is not needed because you are progressing on that project 
and moving forward?
    Ms. Darcy. They have sufficient carryover to be able to 
continue. It is not that they are not funded, it is they do not 
need additional funding this year because they have carryover 
funding from last year.
    Mr. Honda. Perhaps I can get the answer to the second part, 
but also more details on the carryover and what part of the 
project is being worked on.
    Ms. Darcy. OK.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. General, I was 
remiss. I have been reminded that this will be your final 
testimony before the subcommittee. You are lucky. I do 
congratulate you on your life of service as well very much.
    General Bostick. I have always enjoyed these hearings.
    Mr. Honda. Is that a smile or grimace?
    Mr. Visclosky. A question I have is on what I guess is now 
called ``emerging harbors.'' And in the water bill of 2014, 
there was a direction to set aside 10 percent of harbor 
maintenance in the Great Lakes region, but I think on the 
coasts as well. There are a lot of communities that have 
harbors, may not have huge commercial business, from what 
people expect out of places like Long Beach, for example, but 
are nevertheless critical economically.
    There was a 10 percent set-aside, as I am understanding, 
and since the request for this year is $951 million, I would be 
correct that $95 million has been set aside for that purpose?
    General Bostick. Actually, it is a little bit more.
    Ms. Darcy. It is 10.8 percent this year. Emerging and Great 
Lakes both had 10 percent, and one of them, I think, emerging 
harbors, got 10.8 percent or Great Lakes got 10, or vice versa. 
At least 10.
    Mr. Visclosky. That has been carved out from the budget 
request?
    General Bostick. Yes.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Simpson. We have talked a lot about invasive species 
here, and generally, it is invasive species where the species 
have been invasive so far. We are trying to do a lot of 
preventative work in invasive species also, particularly in the 
Pacific Northwest with the zebra mussels and quagga mussels.
    There was money put in the budget last year to establish 
the boat checks, the boat washes and the watercraft inspection 
stations. How are we coming with that? If the zebra mussels and 
the quagga mussels get in the Columbia Basin River System, it 
is going to be a huge economic impact on the Pacific Northwest, 
and we are trying to keep those out. How are we doing with that 
directive?
    Ms. Darcy. We have $10 million in for invasive species in 
our stewardship program. It is for over 200 projects Corps-
wide, and not just for invasive species in the water, but also 
on land. I do not have a whole lot more detail.
    General Bostick. We are drafting the implementation 
guidance now, and it will be completed shortly.
    Mr. Simpson. The States and Fish and Wildlife Service do 
some watercraft inspections. It is kind of interesting that 
Fish and Wildlife a few years ago, or the State of Idaho, found 
quagga mussels during an inspection on a boat that was coming 
in. Unfortunately, it was a Fish and Wildlife boat. That was 
problematic.
    Ms. Darcy. Oops.
    Mr. Simpson. It is something that we have to be really 
careful about, because once they get in, they are there. Ms. 
Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I just had a final 
question, if I could, on the Soo Locks situation. General 
Bostick, can you give us an update on the status of any actions 
the Corps is taking on the Soo Locks?
    And Secretary Darcy, how would you take into account the 
destination of a given lock as a Homeland Security critical 
infrastructure presence in your budgeting process? Would the 
Corps be constrained by looking at only a national economic 
development to cost-ratio when you look at projects like the 
Soo?
    General Bostick. In November, funding was provided to 
initiate an economic reevaluation report. That report will help 
adjust or maintain the current benefit-cost ratio. That is the 
challenge that we have with this project, the benefit-cost 
ratio is not where it needs to be. This economic reevaluation 
will help us better identify the benefits. It is going to take 
us about 2 years to complete the report.
    Mr. Visclosky. If the gentlelady will yield, it is going to 
take 2 more years to complete the review, and you are having 
problems with the cost-benefit ratio?
    General Bostick. Benefit-cost ratio.
    Mr. Visclosky. I had a meeting with a steel executive in 
the First Congressional District within the last 14 days. If 
that lock goes--and more steel is produced in my congressional 
district than any state in the United States of America--there 
will be no steel produced from my district.
    I have to tell you, I just find it incredulous that it 
would take 2 years to determine cost-benefit on a lock that 
would just close steel manufacturing in the United States of 
America.
    General Bostick. It is a very detailed review, but we will 
go back and see if we can accelerate it. I know the importance 
of this area. I have visited it myself.
    Mr. Visclosky. I would encourage all deliberate speed.
    Ms. Kaptur. I thank the gentleman for his important 
critical comments here, and that is why I asked in my question 
how perhaps, Secretary Darcy, you can look at critical Homeland 
Security infrastructure in this review, in your budgeting 
process.
    Ms. Darcy. The Department of Homeland Security has done an 
evaluation of the lock, I think that is what you are referring 
to. The calculations used in this economic analysis is not 
within the usual scope of a Corps of Engineers' analysis. But 
given the fact of what we have learned from the Department of 
Homeland Security's assessment, it is something that we need to 
take a look at and incorporate into the analysis, especially 
from the side of Homeland Security, in addition to the 
economics that need to be taken into consideration.
    Ms. Kaptur. Thank you very much, and I hope that if you 
need additional legislation, I am sure the steel caucus and 
other members here would be very interested in securing the 
proper evaluative guidelines as you move forward.
    Ms. Darcy. Thank you.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. I thank the members for their 
attendance and interest in the Army Corps and their budget. As 
was mentioned during the opening, I have watched this process 
for years, both here in Congress and in the State house that I 
served in, and almost every other State house.
    It seems it is a matter of the way the chief executive is 
doing business, that they always can mark down budget requests 
in things that they know Congress is going to plus out because 
they will not go along with that, so they can fund other 
things. That happens all the time.
    It seems like the Army Corps of Engineers and the 
administration's budget always gets marked down, knowing that 
Congress is going to plus it back up to where we think it is 
adequate. We will work very hard on that this year to make sure 
we have an adequate budget to address the infrastructure needs 
of this country.
    Again, I want to thank both of you for your work. You have 
been exceptionally good to me to work with. When I have brought 
concerns of other members that come to me to your attention, 
you both have been more than willing to address those concerns. 
I appreciate that very much. It makes it much easier for me, 
and in the long run, it makes it easier for you, also.
    I appreciate it, and thank you for your work and we look 
forward to working with you on this year's budget.
    Ms. Darcy. Mr. Chairman, could I just thank the person to 
my left here, who I have had the pleasure to serve with for the 
last 4 years? I am going to miss not having him next to me next 
time.
    Mr. Simpson. Yes.
    Ms. Darcy. He has been a great asset not only to the Corps 
of Engineers, but to the United States of America. His service 
has been unprecedented not only for the Corps, but in his 38 
years of service.
    Also, I appreciate having a bigger room, but Angie did not 
bring the treats today. I am a little disappointed.
    Mr. Simpson. We kept the treats in the other room.
    I could not have said it better. Thank you and thank you. 
The hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 







                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bostick, Lt. General Thomas P., USA..............................   107
Darcy, Jo-Ellen..................................................    97
Lopez, Estevan R.................................................     5

                                  <all>
</pre></body></html>
